No. _______
IN THE

Supreme Court of the United States
DOUG OMMEN, IN HIS CAPACITY AS
LIQUIDATOR OF COOPORTUNITY HEALTH, INC., and
DAN WATKINS, IN HIS CAPACITY AS SPECIAL
DEPUTY LIQUIDATOR OF COOPORTUNITY HEALTH, INC.,
Petitioners,
v.
MILLIMAN, INC., ET AL.,
Respondents.
On Petition for Writ of Certiorari
to the Supreme Court of Iowa
PETITION FOR WRIT OF CERTIORARI
DOUGLAS J. SCHMIDT
KIRSTEN A. BYRD
MICHAEL T. RAUPP
Counsel of Record
HUSCH BLACKWELL LLP
4801 Main St., Suite 1000
Kansas City, MO 64112
(816) 983-8000
michael.raupp
@huschblackwell.com
Counsel for Petitioners
August 28, 2020

QUESTIONS PRESENTED
For over 50 years this Court has upheld the
Federal Arbitration Act’s (FAA) aim to make
“arbitration agreements as enforceable as other
contracts, but not more so.” Prima Paint Corp. v.
Flood & Conklin Mfg. Co., 388 U.S. 395, 404 n.12
(1967). While the FAA preempts state-law defenses
that single out arbitration agreements, it preserves
defenses applicable to all contracts. 9 U.S.C. § 2.
In the decision below, however, the Iowa Supreme
Court held the FAA preempts the generally
applicable statutory authority of an insurance
liquidator to disavow a defunct insurer’s improvident
contracts. Merely because the contract at issue
contained an arbitration clause, the court found
preemption applied, thereby elevating the contract
for special protection and furthering a split with
state courts that appropriately refuse to apply FAA
preemption to generally applicable defenses. The
court did so despite the disavowal defense’s general
applicability and the Liquidators’ disavowal of the
entire contract, including onerous provisions
contrary to the Liquidators’ public-protection role.
Further, the court expanded a split among state
and federal courts by holding that the McCarranFerguson Act (McCarran-Ferguson) does not exempt
the disavowal defense from FAA preemption.
The questions presented are:
Whether the FAA preempts the generally
applicable disavowal defense codified in Iowa’s
Liquidation Act; and
If so, whether McCarran-Ferguson exempts the
disavowal defense from preemption.

ii
PARTIES TO THE PROCEEDING
Petitioners are Doug Ommen, in his capacity as
Liquidator of CoOportunity Health, Inc., and Dan
Watkins, in his capacity as Special Deputy
Liquidator of CoOportunity Health, Inc. Petitioners
were plaintiffs in the trial court and appellees in the
Iowa Supreme Court.
Respondents are Milliman, Inc., Kimberley
Hiemenz, and Michael Sturm. Respondents were
defendants in the trial court and appellants in the
Iowa Supreme Court.
Stephen Ringlee, David Lyons, and Clifford Gold
were defendants in the trial court, but were not
involved in the proceedings relevant to this petition.

iii
STATEMENT OF RELATED PROCEEDINGS
Ommen v. Ringlee, No. 18-0335 (Iowa) (opinion
and judgment entered April 3, 2020; procedendo
issued May 12, 2020).
Ommen v. Milliman, Inc., No. LACL 138070
(Iowa D. Ct.) (order denying motion to dismiss and
compel arbitration issued February 6, 2018; notice of
appeal filed February 23, 2018).
There are no additional proceedings in any court
that are directly related to this case.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ......................................i
PARTIES TO THE PROCEEDING ........................ ii
STATEMENT OF RELATED PROCEEDINGS .... iii
TABLE OF AUTHORITIES .................................... vi
PETITION FOR WRIT OF CERTIORARI .............. 1
OPINIONS BELOW ................................................. 3
JURISDICTION........................................................ 3
STATUTORY PROVISIONS INVOLVED ............... 4
STATEMENT OF THE CASE .................................. 4
A. Factual And Procedural Background....... 4
B. The Decision Below................................... 7
REASONS FOR GRANTING THE PETITION ....... 9
I.
The Iowa Supreme Court’s Decision
Violates The Federal Arbitration Act And
This Court’s “Equal Footing” Precedents,
And, In Doing So, Exacerbates A Conflict
With
State
Courts
Appropriately
Preserving Generally Applicable Contract
Defenses. ......................................................... 11
II. State Supreme Courts And Federal
Circuit Courts Are Divided On Whether
McCarran-Ferguson Exempts Insurance
Liquidation
Statutes
From
FAA
Preemption. ..................................................... 19
III. The Questions Presented Are Extremely
Important And Warrant This Court’s
Review Now..................................................... 27
CONCLUSION........................................................ 29

v
APPENDIX
Appendix A
Opinion, Ommen v. Ringlee,
No. 18-0335 (Apr. 3, 2020) .......................... App.1a
Appendix B
Order Denying Milliman, Inc. et al.’s
Motion to Compel Arbitration,
Ommen v. Milliman, Inc.,
No. LACL 138070 (Feb. 6, 2018) ............... App.57a
Appendix C
Relevant Statutory Provisions .................. App.65a
9 U.S.C. § 2 ........................................... App.65a
15 U.S.C. § 1012(b)............................... App.65a
Iowa Code Ann. § 507C.1 ..................... App.66a
Iowa Code Ann. § 507C.21 ................... App.67a

vi
TABLE OF AUTHORITIES
Page(s)
Cases
Allied-Bruce Terminix Cos. v. Dobson,
513 U.S. 265 (1995) ................................... 7, 12
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ....................................... 12
Atkins v. CGI Techs & Sols, Inc.,
724 F. App’x 383 (6th Cir. 2018)............. 24, 26
Berent v. CMH Homes, Inc.,
466 S.W.3d 740, 748-58 (Tenn. 2015) ........... 18
Buckeye Check Cashing, Inc. v. Cardegna,
546 U.S. 440 (2006) ....................................... 12
Cain v. Midland Funding, LLC,
156 A.3d 807 (Md. 2017) ............................... 18
Davister Corp. v. United Republic Life Ins.
Co.,
152 F.3d 1277 (10th Cir. 1998) ............... 22, 23
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463 (2015) ............................... 11, 12
Doctor’s Assocs., Inc. v. Casarotto,
517 U.S. 681 (1996) ................................passim
Donelon v. Shilling,
___ So.3d ___, 2020 WL 2306075
(La. Apr. 27, 2020) ....................... 10, 20, 26, 28
EEOC. v. Waffle House, Inc.,
534 U.S. 279 (2002) ....................................... 12
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) ................................... 12
Ernst & Young, LLP v. Clark,
323 S.W.3d 682 (Ky. 2010) ...................... 21, 25

vii
GGNSC Holdings, LLC v. Lamb ex rel.
Williams,
487 S.W.3d 348 (Ark. 2016) .......................... 16
Hales v. ProEquities, Inc.,
885 So. 2d 100 (Ala. 2003) ............................ 18
Humana Inc. v. Forsyth,
525 U.S. 299 (1999) ....................................... 20
Kindred Nursing Centers Ltd. P’ship v. Clark,
137 S. Ct. 1421 (2017) ......................... 1, 11, 12
McGill v. Citibank, N.A.,
393 P.3d 85 (Cal. 2017) ................................. 17
Milliman, Inc. v. Roof,
353 F. Supp. 3d 588 (E.D. Ky. 2018) ...... 11, 25
Morgan v. Sanford Brown Inst.,
137 A.3d 1168 (N.J. 2016) ............................. 17
Munich Am. Reinsurance Co. v. Crawford,
141 F.3d 585 (5th Cir. 1998) ............. 21, 22, 26
Norfolk and W. Ry. Co. v. Am. Train
Dispatchers Ass’n,
499 U.S. 117 (1991) ................................. 15, 22
Perry Homes v. Cull,
258 S.W.3d 580 (Tex. 2008) .......................... 17
Perry v. Thomas,
482 U.S. 483 (1987) ....................................... 11
Prima Paint Corp. v. Flood & Conklin Mfg.
Co.,
388 U.S. 395 (1967) .......................... i, 1, 12, 18
State ex rel Richardson v. Eighth Judicial
Dist. Court in & for Cty. of Clark,
454 P.3d 1260, 2019 WL 7019006 (Nev.
Dec. 19, 2019) ..........................................passim

viii
State ex rel. U-Haul Co. of W. Va. v. Zakaib,
752 S.E.2d 586 (W. Va. 2013) ....................... 18
Stephens v. Am. Int’l Ins. Co.,
66 F.3d 41 (2d Cir. 1995) .............................. 22
Suter v. Munich Reinsurance Co.,
223 F.3d 150 (3d Cir. 2000) .............. 23, 24, 27
U.S. Dep’t of Treasury v. Fabe,
508 U.S. 491 (1993) ................................. 26, 27
Vaden v. Discover Bank,
556 U.S. 49 (2009) ......................................... 12
Volt Info. Scis., Inc. v. Bd. of Trs. of Leland
Stanford Junior Univ.,
489 U.S. 468 (1989) ................................... 3, 12
Statutory Authorities
15 U.S.C. § 1012(b) ............................................passim
28 U.S.C. § 1257(a) ..................................................... 3
42 U.S.C. § 18042 ........................................................ 4
9 U.S.C. § 2 .........................................................passim
Iowa Code § 507C.21..........................................passim
Iowa Code Ann §§ 507C.1 ............................... 4, 23, 27
Additional Authorities
Health CO-OP, National Association of
Insurance Commissioners (Feb. 12,
2020),
https://content.naic.org/cipr_topics/topi
c_health_co_op.htm. ................................. 28, 29

PETITION FOR WRIT OF CERTIORARI
Under the Federal Arbitration Act (FAA),
contracts containing arbitration clauses are to be
placed on “equal footing” with all other contracts.
Kindred Nursing Centers Ltd. P’ship v. Clark, 137 S.
Ct. 1421, 1424 (2017). That is, the FAA makes
arbitration agreements as enforceable as other
contracts, “but not more so.” Prima Paint, 388 U.S.
at 404 n.12. This is a case of the “more so,” in which
the Iowa Supreme Court found the FAA preempted a
generally applicable contract defense because the
contract happened to contain an arbitration clause.
The Iowa legislature vested liquidators of defunct
insurance companies with extensive authority,
including the ability to disavow contracts
improvidently entered into by the predecessor
insurance company. Iowa Code § 507C.21(1)(k). The
contract at issue here included several terms
contrary to the Liquidators’ role of safeguarding and
recovering assets through open and transparent
proceedings.
These terms included substantial
limitations on recoverable damages, choice-of-law
provisions compelling the application of out-ofjurisdiction
law,
confidentiality
provisions
inconsistent with the Liquidators’ public-protection
role, and a clause requiring “confidential” arbitration.
The Liquidators therefore disavowed the contract in
its entirety. As a result, the Liquidators asserted no
breach-of-contract claims in their lawsuit. When
Respondents moved to compel arbitration, the trial
court properly denied the motion due to the
Liquidators’ disavowal.
In the decision below, however, the Iowa Supreme
Court reversed. In a short preemption discussion,

2
the court recognized the equal-footing doctrine, but
incorrectly concluded that the doctrine required the
court to compel arbitration. According to the court,
since Respondents had already performed their
professional services under the contract, allowing the
Liquidators to disavow would “amount[] to nothing
more than singling out the arbitration provision for
evasion.” App.16a. On that basis, the court held the
FAA preempted the Liquidators’ disavowal authority.
The court did not mention the other onerous
provisions contained in the contract the Liquidators
disavowed. Nor did the court’s cursory discussion
properly apply the equal-footing doctrine: the
relevant question is whether the defense itself is
generally applicable (as disavowal certainly is), not
whether application of a generally applicable defense
happens to preclude arbitration. By misapplying the
equal-footing doctrine, the Iowa Supreme Court
defied this Court’s consistent jurisprudence and
elevated
contracts
that
contain
arbitration
agreements above those that do not. Unsurprisingly,
this errant decision furthered a conflict with the vast
majority of state courts that properly retain
generally applicable defenses.
The court then landed on the wrong side of a split
among state and federal courts regarding the
interaction between McCarran-Ferguson and the
FAA. McCarran-Ferguson exempts state statutes
from federal preemption if enacted “for the purpose
of regulating the business of insurance.” 15 U.S.C.
§ 1012(b). Courts are hopelessly divided on whether
state insurance-liquidation mechanisms trigger this
doctrine of “reverse preemption” with respect to the
FAA. In this case, that should have been an easy

3
answer, because the state statute at issue—the
disavowal authority—plainly regulates the business
of insurance. Nevertheless, the court refused to
apply McCarran-Ferguson, holding that the Iowa
Liquidation Act, viewed generally and as a whole,
was not impaired by the court’s application of the
FAA. Once again, that is the wrong scope of inquiry,
and it further exacerbates the errant side of the split
among courts on this issue.
OPINIONS BELOW
The Iowa Supreme Court’s opinion is reported at
941 N.W.2d 310 and reproduced at App.1a-56a.1 The
trial court’s opinion is unreported but reproduced at
App.57a-64a.
JURISDICTION
The Iowa Supreme Court issued its opinion on
April 3, 2020.
On March 19, 2020, this Court extended the time
within which to file any petition for a writ of
certiorari due on or after that date to 150 days from
the date of the lower-court judgment, order denying
discretionary review, or order denying a timely
petition for rehearing. The effect of that order was to
extend the deadline for filing a petition for a writ of
certiorari in this case to August 31, 2020.
This Court has jurisdiction under 28 U.S.C.
§ 1257(a). See, e.g., Volt Info. Scis., Inc. v. Bd. of Trs.
of Leland Stanford Junior Univ., 489 U.S. 468, 473
n.4 (1989).
1 The Iowa Supreme Court issued an opinion correction
notice on June 10, 2020, directing that certain typographical
errors in the opinion be corrected. The opinion reproduced at
App.1a-56a includes those corrections.

4
STATUTORY PROVISIONS INVOLVED
The relevant provisions of the FAA, 9 U.S.C. § 2,
the relevant provisions of McCarran-Ferguson, 15
U.S.C. § 1012(b), and the relevant provisions of
Iowa’s Liquidation Act, Iowa Code Ann. §§ 507C.1,
507C.21, are reproduced at App.65a-71a.
STATEMENT OF THE CASE
A. Factual And Procedural Background
CoOportunity Health, Inc. (CoOportunity) was a
nonprofit health insurer established under the
Affordable Care Act’s Consumer Operated and
Oriented Plan (CO-OP) program. See App.4a; 42
U.S.C. § 18042. This program provided federal loans
to “foster the creation of qualified nonprofit health
insurance issuers to offer qualified health plans in
the individual and small group markets in the States
in which the issuers are licensed to offer such plans.”
42 U.S.C. § 18042.
In July 2011, the federal government announced
a funding opportunity under the CO-OP program,
inviting nonprofit insurance companies to apply for
federal funding.
App.5a.
Shortly thereafter,
CoOportunity’s founders engaged Respondent
Milliman, Inc. (Milliman) to provide actuarial
consulting services. Ibid. Specifically, CoOportunity
relied on Milliman to secure approval for federal
funding, set the rates CoOportunity would charge for
insurance policies, and provide other actuarial
services. Ibid.
At the inception of this relationship, the parties
signed a Consulting Services Agreement. App.4a-5a.
This Agreement limited CoOportunity’s maximum
recovery arising from any malpractice to three times

5
the professional fees paid to Milliman. App.59a. It
prevented any recovery of lost profits, consequential
damages, and punitive damages. Ibid. It called for
the application of New York law. Ibid. And, it
contained
an
arbitration
clause
requiring
confidential arbitration: “In the event of any dispute
arising out of or relating to the engagement of
Milliman by Company, the parties agree that the
dispute will be resolved by final and binding
arbitration under the Commercial Arbitration Rules
of the American Arbitration Association.” App.6a.
CoOportunity secured its federal loan of $145
million in 2012, began enrolling policyholders in
2013, and began covering healthcare claims in
January 2014. App.4a. After just a year of operation,
CoOportunity suffered losses in excess of $163
million. Ibid. Early in 2015, the Iowa Insurance
Commissioner declared CoOportunity insolvent, and
the Iowa District Court (Liquidation Court)
subsequently placed the company into liquidation by
a Final Order of Liquidation dated March 2, 2015.
Ibid. The Liquidation Court appointed the Iowa
Insurance Commissioner, Petitioner Doug Ommen,
as liquidator, and Dan Watkins as special deputy
liquidator (together, the “Liquidators”). Ibid.; see
also Iowa Code § 507C.21(1)(a).
The Iowa Insurers Supervision and Liquidation
Act (Liquidation Act) vests liquidators with
substantial authority.
Iowa Code § 507C.21.
Entitled “Powers of liquidator,” this provision of the
Liquidation Act contains 23 separate subsections
authorizing various actions of insurance liquidators.
Of note here, liquidators may “[p]rosecute an action
on behalf of the creditors, members, policyholders or

6
shareholders of the insurer against an officer of the
insurer, or any other person.”
Iowa Code
§ 507C.21(1)(m).
Additionally, liquidators may
“[e]nter into contracts as necessary to carry out the
order to liquidate and affirm or disavow contracts to
which the insurer is a party.”
Iowa Code §
507C.21(1)(k).
The Liquidators filed suit against Milliman for its
role in CoOportunity’s collapse under the
Liquidators’ “statutory mandate to preserve and
collect the assets of the company and to protect the
interests of policyholders, creditors, and the public.”
App.58a. The Liquidators asserted common law tort
claims against Milliman, seeking money damages for
“professional negligence, breach of fiduciary duty,
and reckless, willful, or intentional misconduct.”
App.5a.
The liquidators asserted no breach-ofcontract claims. Milliman moved to dismiss and
compel arbitration based upon the arbitration clause
in the Agreement. Ibid. The Liquidators opposed,
explaining they disavowed the Agreement in its
entirety. See App.61a-62a.
The trial court denied the motion to compel
arbitration. App.57a-64a. The court ruled that the
Liquidators were non-signatories to the contract and
were not bound by the terms of the arbitration clause.
App.59a-61a. Further, the trial court found that the
Liquidators disavowed the contract pursuant to Iowa
Code § 507C.21(1)(k), and the Liquidators could
therefore not be compelled to arbitrate. App.61a-62a.
Finally, the court ruled it could not compel
arbitration under the FAA in any event, because
McCarran-Ferguson
exempted
the
relevant
provisions of the Iowa Liquidation Act from federal

7
preemption.
App.63a.
Milliman appealed this
decision, and the Iowa Supreme Court retained
immediate jurisdiction over the appeal. See App.3a.
B. The Decision Below
The Iowa Supreme Court reversed. The court
first held that the non-signatory Liquidators were
bound by the terms of the arbitration agreement. 2
Add.7a-15a. Turning to the preemption issue, the
court began by framing it correctly: whether the
Liquidators’ disavowal of the “entire 2011
Agreement” ran afoul “of the FAA’s mandate to place
arbitration agreements on an equal footing with
other contracts.”
App.15a (citing Allied-Bruce
Terminix Cos. v. Dobson, 513 U.S. 265, 281 (1995)).
But instead of evaluating whether the disavowal
defense is generally applicable to all contracts (it is),
the court decided that because Milliman had
“already performed” services under the agreement,
allowing disavowal of the entire agreement “amounts
to nothing more than singling out the arbitration
provision for evasion.” App.16a. Even though the
Liquidators did not assert any breach-of-contract
claims, the court confusingly found it “difficult to
reconcile the ability of the liquidator to disavow the
2011 Agreement while still retaining the ability to
assert claims against Milliman pursuant to the same
contract.” App.15a. Under that suspect reasoning,
the court found that the FAA preempted the
Liquidators’ ability to disavow the Agreement: “To
avoid treating the arbitration provision as ‘suspect
status,’ and to place the provision on equal footing as
2 Although the Liquidators disagree with this conclusion, it
is not challenged in this petition.

8
other contracts, the liquidator cannot be permitted to
disavow the 2011 Agreement under Iowa Code
section 507C.21(k).” App.16a (citing Doctor’s Assocs.,
Inc. v. Casarotto, 517 U.S. 681, 687 (1996)). The
court said nothing of the additional provisions of the
Agreement negated by the disavowal, nor did it
discuss whether the disavowal defense applies to all
contracts generally.
Having found FAA preemption, the court next
addressed whether McCarran-Ferguson exempted
the disavowal defense from federal preemption. The
court analyzed this question by looking at the Iowa
Liquidation Act as a whole and evaluating whether
requiring arbitration under the FAA would
“invalidate, impair, or supersede operation of the
Iowa Liquidation Act.” App.17a-19a. The court
found it would not because the Act did not require
the Liquidators to bring claims in state court and the
liquidation order contemplated that the Liquidators
had the ability to participate in arbitration
proceedings. App.19a-21a. The court therefore held
that compelling arbitration changed only the forum
in which the Liquidators must assert their claims
and did not “impede the liquidator’s ability to
conduct an orderly dissolution.” App.21a.
Justice Appel dissented. On the preemption
question,
he
correctly
recognized
how
straightforward this inquiry should have been: “state
law that is generally applicable and does not
discriminate against arbitration provisions does not
offend the FAA.” App.47a (citing Doctor’s Assocs.,
517 U.S. at 686-87 (1996)). The dissent accurately
explained that that the disavowal authority does not
so discriminate because it “applies to all contracts,

9
empowering the insurance commissioner to disavow
contracts that it believes impair the public interest in
a state liquidation proceeding.” Ibid. “There is
simply nothing in Iowa Code section 507C.21(1)(k)
that ‘single[s] out arbitration provisions for suspect
status.’”
App.47a-48a (alteration in original)
(quoting Doctor’s Assocs., 517 U.S. at 687).
The dissent further explained that even if the
disavowal authority conflicted with the FAA, it
would be exempted from federal preemption by
McCarran-Ferguson. App.48a-55a. Preventing the
Liquidators from disavowing the Agreement and
forcing them to arbitrate the claims in a confidential
arbitration proceeding under New York law
interferes with the Iowa Liquidation Act’s purpose of
providing a comprehensive scheme for the efficient
liquidation of insurance companies. App.51a-52a. It
also impairs the ability of the Iowa Insurance
Commissioner (through the Liquidators) to enforce
Iowa law. App.52a-53a. Accordingly, Justice Appel
concluded that McCarran-Ferguson would exempt
the disavowal authority from FAA preemption.
REASONS FOR GRANTING THE PETITION
The FAA’s express preservation of generally
applicable contract defenses is the bedrock of this
Court’s equal-footing jurisprudence. The decision
below plainly violates decades of this Court’s
precedents by treating contracts with arbitration
clauses more favorably than those without. The
Liquidators’ authority to disavow contracts applies to
any contract, irrespective of whether it contains an
arbitration clause.
That general applicability
preserves the defense under § 2 of the FAA. The
Iowa Supreme Court’s contrary decision ignores the

10
FAA, violates this Court’s precedents, and stands in
stark conflict with state courts elsewhere that
correctly preserve generally applicable defenses.
Further, the decision below exacerbates the
errant side of a divide among state and federal courts
on whether McCarran-Ferguson exempts state
insurance liquidation statutes from FAA preemption.
Indeed, courts have reached different outcomes on
this question, with the majority of courts holding
that McCarran-Ferguson does apply. That should
have been the easy conclusion here, because Iowa’s
disavowal authority for insurance liquidators was
undoubtedly established to regulate the business of
insurance and is impaired by the inability to apply it
to
contracts
containing
arbitration
clauses.
Nevertheless, the decision below held otherwise,
deepening a split this Court should resolve.
This Court’s resolution of these issues is needed
now. This case alone involves millions of dollars of
policyholder and taxpayer funds in a proceeding
that—by statute—is supposed to be open and
transparent. Further, several liquidators of defunct
CO-OPs have sued Respondent Milliman on similar
theories, and state courts are currently reaching
divergent conclusions on whether the FAA preempts
the ability of liquidators to assert generally
applicable defenses in contesting arbitration.
Compare Donelon v. Shilling, ___ So.3d ___, 2020 WL
2306075, at *1 (La. Apr. 27, 2020) (holding
McCarran-Ferguson exempts Louisiana’s liquidation
statutes from preemption in a case involving the
same arbitration clause and the same movant,
Milliman), with App.1a-56a; State ex rel Richardson
v. Eighth Judicial Dist. Court in & for Cty. of Clark,

11
454 P.3d 1260 (Table), 2019 WL 7019006, at *1 (Nev.
Dec. 19, 2019); Milliman, Inc. v. Roof, 353 F. Supp.
3d 588, 604 (E.D. Ky. 2018). The status quo is
simply untenable and warrants the Court’s review
now.
I. The Iowa Supreme Court’s Decision Violates
The Federal Arbitration Act And This
Court’s “Equal Footing” Precedents, And, In
Doing So, Exacerbates A Conflict With State
Courts Appropriately Preserving Generally
Applicable Contract Defenses.
Section 2 of the FAA provides that written
agreements to arbitrate “shall be valid, irrevocable,
and enforceable, save upon such grounds as exist at
law or in equity for the revocation of any contract.” 9
U.S.C. § 2. In accordance with that directive,
“generally applicable contract defenses, such as fraud,
duress, or unconscionability, may be applied to
invalidate
arbitration
agreements
without
contravening § 2.” Doctor’s Assocs., 517 U.S. at 686.
A state-law defense is not preempted by the FAA “if
that law arose to govern issues concerning the
validity, revocability, and enforceability of contracts
generally,” but is preempted if the state law is
“applicable only to arbitration provisions.” Id. at
686-87 (quoting Perry v. Thomas, 482 U.S. 483, 492
n.9 (1987)).
This
principle,
articulated
consistently
throughout this Court’s precedents interpreting the
FAA, requires courts to “place arbitration
agreements ‘on equal footing with all other
contracts.’” Kindred Nursing Centers Ltd. P’ship v.
Clark, 137 S. Ct. 1421, 1424 (2017) (quoting
DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463, 465

12
(2015)). To be sure, this Court has most frequently
employed this doctrine to preclude state-law defenses
that single out arbitration clauses for adverse
treatment; but, in doing so, this Court consistently
reiterates that the purpose of those rulings is to put
arbitration agreements on equal footing with all
other contracts. See, e.g., Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612, 1622 (2018); Kindred, 137 S. Ct. at
1424; DIRECTV, 136 S. Ct. at 465; AT&T Mobility
LLC v. Concepcion, 563 U.S. 333, 339 (2011); Vaden v.
Discover Bank, 556 U.S. 49, 64 (2009); Buckeye Check
Cashing, Inc. v. Cardegna, 546 U.S. 440, 447 (2006);
Doctor’s Assocs., 517 U.S. at 687; Allied-Bruce, 513
U.S. at 281.
Indeed, over 50 years ago this Court explained
that the purpose of the FAA “was to make arbitration
agreements as enforceable as other contracts, but not
more so.”
Prima Paint, 388 U.S. at 404 n.12
(emphasis added); see also EEOC. v. Waffle House,
Inc., 534 U.S. 279, 293 (2002); Volt, 489 U.S. at 478.
Immunizing an agreement to arbitrate from a
generally applicable defense would “elevate it over
other forms of contract—a situation inconsistent
with” § 2 of the FAA. Prima Paint, 388 U.S. at 404
n.12.
1. The Iowa Supreme Court’s decision ignores § 2
of the FAA and this Court’s equal-footing precedents
by elevating contracts that contain arbitration
clauses above those that do not.
The Iowa
Liquidation Act confirms that liquidators may
“disavow contracts to which the insurer is a party.”
Iowa Code § 507C.21(1)(k). Under that authority,
the Liquidators may disavow any contract they
choose, no matter whether it contains an arbitration

13
clause or not. Thus, there is no question this “law
arose to govern issues concerning the validity,
revocability, and enforceability of contracts
generally.”
Doctor’s Assocs., 517 U.S. at 686.
Because the statute addresses the “revocability . . . of
contracts generally,” it is not preempted by the FAA.
See ibid.
That should have been the end of the inquiry.
The Iowa Supreme Court’s attempt to justify its
contrary decision by invoking the equal-footing
doctrine (especially by citing Doctor’s Associates to do
so) is puzzling. In Doctor’s Associates, this Court
found the FAA preempted a Montana state statute
requiring a printed notice—“typed in underlined
capital letters”—on the first page of a contract
explaining it was subject to arbitration. 517 U.S. at
684. If such a notice did not appear, “the contract
may not be subject to arbitration.” Ibid. Not
surprisingly, this Court held the FAA preempted
that “threshold limitation[] placed specifically and
solely on arbitration provisions,” because it placed
“arbitration agreements in a class apart from ‘any
contract,’ and singularly limit[ed] their validity.” Id.
at 688.
Here, the Iowa Supreme Court created its own
division, treating contracts containing arbitration
clauses “in a class apart” from all other contracts.
See id. at 687-88. Because the disavowal defense is
generally applicable, that decision cannot be
reconciled with the FAA, Doctor’s Associates, or any
of this Court’s precedents.
The Iowa Supreme Court claimed that because
Respondents had already performed their services
under the contract, the Liquidators’ disavowal

14
“amount[ed] to nothing more than singling out the
arbitration provision for evasion” and was therefore
preempted by the FAA. App.16a. That holding is
not supported by any authority. This Court has
never held, or even intimated, that the preemption
inquiry changes depending on how much of a
contract has been performed. To the contrary, the
inquiry focuses on the defense itself, not whether use
of a generally applicable defense happens to preclude
arbitration. See Doctor’s Assocs., 517 U.S. at 686.
Indeed, the Iowa Supreme Court’s contrary rule
swallows the FAA’s express preservation of defenses
that “exist at law or in equity for the revocation of
any contract.” 9 U.S.C. § 2. To be sure, the vast
majority of disputes naturally arise after parties
have performed the obligations of their contracts.
According to the decision below, once that
performance occurs, defenses previously preserved by
§ 2 are somehow transformed into preempted
defenses simply because the remedy provisions of the
contract are all that remain. Such a theory is plainly
inconsistent with the FAA.
Take, for example, defenses this Court recognizes
as preserved by § 2 of the FAA: fraud, duress, and
unconscionability. Doctor’s Assocs., 517 U.S. at 686.
No one would seriously suggest a party can assert a
valid fraud defense up until the contract’s services
are performed, at which time the FAA preempts the
fraud defense and forces the party to arbitrate. Yet
that is precisely what the Iowa Supreme Court held
here, in contravention of the FAA.
Perhaps most telling—even under the Iowa
Supreme Court’s warped theory of § 2 of the FAA—is
the omission of any discussion of the other terms

15
present in the disavowed Agreement.
The
Agreement substantially limited Milliman’s potential
liability for misconduct, it called for application of
New York law, and it required any arbitration to be
confidential.
App.59a.
Mentioning these items
would have illustrated the Liquidators were
disavowing much more than just an arbitration
clause, so the court simply omitted any reference.
In fact, the Liquidators disavowed the contract in
its entirety—the arbitration clause, the damage
limitations, and everything else therein.
The
Liquidators did not assert a breach-of-contract claim,
nor could they, because they disavowed the entire
contract; as the court recognized elsewhere in the
opinion, the Liquidators asserted only “common law
tort claims.”
See App.4a.
Thus, while the
Liquidators’ disavowal provided certain benefits to
the estate, it also posed certain risks by requiring the
estate to pursue more uncertain causes of action. 3
Weighing that risk is a judgment the Iowa
Legislature leaves to the discretion of liquidators
with respect to any contract of the insurer.
In any event, all that matters for purposes of the
preemption inquiry is the general applicability of the
disavowal statute. The Iowa Supreme Court’s effort
3 Milliman is a sophisticated entity that has long practiced
in the highly regulated insurance industry, so any suggestion it
was unaware of, or surprised by, the Liquidators’ ability to
disavow the Agreement is not well taken. See, e.g., Norfolk and
W. Ry. Co. v. Am. Train Dispatchers Ass’n, 499 U.S. 117, 130
(1991) (“Laws which subsist at the time and place of the making
of a contract, and where it is to be performed, enter into and
form a part of it, as fully as if they had been expressly referred
to or incorporated in its terms.”).

16
to skirt § 2 of the FAA is contrary to this Court’s
precedents and ignores the plain language of the
statute.
2. Unfortunately, the Iowa Supreme Court is not
alone in refusing to preserve generally applicable
contract defenses as the FAA commands.
In GGNSC Holdings, LLC v. Lamb ex rel.
Williams, for example, the Arkansas Supreme Court
rejected an unconscionability defense in conclusory
fashion based on the public policy favoring
arbitration. 487 S.W.3d 348, 358 (Ark. 2016). As the
dissent explained, that “truncated analysis violates
our mandate to treat arbitration agreements the
same as any other contract.” Id. at 359 (Danielson,
J., dissenting). Instead of performing a substantive
analysis of the unconscionability defense, the court’s
reflexive use of the public policy favoring arbitration
to set aside the defense elevated contracts containing
arbitration clauses above those that did not. See id.
at 359-60. As the dissent explained it, that violated
even the Arkansas Supreme Court’s previous
recognition “that the national policy favoring
arbitration is not a requirement that arbitration
agreements be elevated above other types of
contracts.” Id. at 360.
Just like the Iowa Supreme Court’s opinion, the
majority opinion in GGNSC “singled out arbitration
agreements for special status instead, such that they
need not be scrutinized as contracts at all.” Id. at
361. In fact, the Iowa Supreme Court’s decision here
is an even more egregious violation of the FAA and
this Court’s equal-footing principles, as it negated
the entirety of a generally applicable defense

17
(disavowal) as opposed to altering the application of
a defense.
In any event, decisions flouting the plain
language of the FAA and this Court’s equal-footing
precedents cannot stand.
3. Not surprisingly, far more prevalent are
decisions from several other states appropriately
preserving generally applicable defenses under § 2 of
the FAA.
For example, in McGill v. Citibank, N.A., the
California Supreme Court held that the FAA did not
preempt a state law permitting revocation of any
contract “that purports to waive, in all fora, the
statutory right to seek public injunctive relief” under
several of the State’s consumer protection laws. 393
P.3d 85, 94 (Cal. 2017). The court explained that the
FAA does not require enforcement of such a waiver,
“in derogation of this generally applicable contract
defense, merely because the provision has been
inserted into an arbitration agreement.” Id. at 94-95.
Notably, the defense raised in McGill was statutory,
just like the disavowal authority asserted by the
Liquidators here.
In Morgan v. Sanford Brown Institute, the New
Jersey Supreme Court explained that § 2 of the FAA
preserved generally applicable contract defenses,
including a state statute imposing requirements on
consumer contracts generally, as well as defenses to
the elements of contract formation. 137 A.3d 1168,
1177, 1181 (N.J. 2016). Similarly, in Perry Homes v.
Cull, the Texas Supreme Court applied the generally
applicable defense of waiver to an arbitration
agreement,
explaining
that
“because
most
agreements can be waived by the parties’ conduct,

18
arbitration contracts should not be more enforceable
than other contracts.” 258 S.W.3d 580, 597 (Tex.
2008) (footnote omitted); see also Cain v. Midland
Funding, LLC, 156 A.3d 807, 814 (Md. 2017)
(applying waiver defense in light of § 2 of the FAA);
Hales v. ProEquities, Inc., 885 So. 2d 100, 105 (Ala.
2003) (quoting Prima Paint, 388 U.S. at 404 n.12, in
holding that arbitration agreements are “as
enforceable as other contracts, but not more so,” and
applying the generally applicable defense of waiver
to an arbitration agreement).
In State ex rel. U-Haul Co. of West Virginia v.
Zakaib, the West Virginia Supreme Court applied its
rules for interpreting “clickwrap” agreements, as well
as its generally applicable doctrine of incorporation
by reference, to an arbitration agreement. 752
S.E.2d 586, 593 (W. Va. 2013). In doing so, the court
noted that the FAA “does not favor or elevate
arbitration agreements to a level of importance above
all other contracts.” Ibid. Because the doctrines at
issue were generally applicable, they applied to
arbitration agreements just as they would to any
other contract. Ibid.
Finally, in Berent v. CMH Homes, Inc., the
Tennessee Supreme Court engaged in an extensive
analysis of § 2 and this Court’s precedents,
concluding they preserved the state’s generally
applicable unconscionability defense—including an
analysis of mutuality of obligations as a relevant
factor. 466 S.W.3d 740, 748-58 (Tenn. 2015).
Importantly, the Berent court ultimately enforced
the arbitration clause at issue, illustrating these
decisions from various states are not outcome driven.
No matter whether courts ultimately decide to

19
enforce the agreement, their analysis all begins from
the same footing: because generally applicable
defenses are at issue, FAA preemption simply does
not apply.
Contrary to that sound approach, the Iowa
Supreme Court ignored the FAA and this Court’s
precedents by finding the FAA preempted the
generally applicable disavowal defense. In so doing,
the court furthered a split with the overwhelming—
and correct—body of case law preserving generally
applicable contract defenses. This Court should
resolve that split and uphold its equal footingprecedents.
II. State Supreme Courts And Federal Circuit
Courts Are Divided On Whether McCarranFerguson Exempts Insurance Liquidation
Statutes From FAA Preemption.
Had the decision below correctly resolved the
arbitration question, there would have been no need
to analyze McCarran-Ferguson. But because the
court found the FAA preempted the generally
applicable disavowal defense, the court next
analyzed whether McCarran-Ferguson applied to the
liquidation statute, a question that has divided
courts across the country. The answer here should
have been easy, because the disavowal statute at
issue plainly meets this Court’s test for application of
McCarran-Ferguson. Unfortunately, the Court ruled
otherwise, further exacerbating the split among the
courts.
1. On one side of the divide, the majority of
courts have held that McCarran-Ferguson exempts
state liquidation statutes from FAA preemption.
Those decisions accurately explain that state

20
liquidation statutes were enacted “for the purpose of
regulating the business of insurance”; that the FAA
does not “specifically relate to the business of
insurance”; and that the FAA would “invalidate,
impair, or supersede” the liquidation statutes. See
Humana Inc. v. Forsyth, 525 U.S. 299, 307 (1999)
(articulating the elements for application of
McCarran-Ferguson).
Most recently, in Donelon v. Shilling, the
Louisiana Supreme Court reviewed the disposition of
a motion to compel arbitration filed by Milliman (the
same Respondent in this case) in a lawsuit filed by
the rehabilitator of a defunct health insurance COOP (the same posture as this case). 2020 WL
2306075, at *1. Applying the McCarran-Ferguson
factors, the court began by easily dispensing with the
seemingly uncontroversial factor that the FAA does
not “specifically relate to the business of insurance.”
Id. at *5.
Turning to the Louisiana liquidation and
rehabilitation statutes, the court explained they were
expressly enacted for the purpose of regulating the
business of insurance. Moreover, the “statutory
scheme for rehabilitation and liquidation of insurers
is comprehensive and exclusive in scope,” it “balances
the interests of policyholders, creditors, and
claimants,” and it “was enacted to regulate insurance
‘in the public interest.’” Id. at *6. The Louisiana
legislature included in this “comprehensive scheme
to regulate insolvent insurers” provisions granting
the rehabilitator “the authority to choose which
forum to bring an action.” Id. at *7. Borrowing from
the Fifth Circuit’s analysis of a similar Oklahoma
liquidation statute, the court described the policy

21
reasons for vesting the liquidator with such
discretion: “the orderly adjudication of claims; the
avoidance of unnecessary and wasteful dissipation of
the insolvent company’s funds that would occur if the
receiver had to litigate in different forums
nationwide; the elimination of the risk of conflicting
rulings, piecemeal litigation of claims, and unequal
treatment of claimants.” Ibid. (internal quotation
marks omitted) (citing Munich Am. Reinsurance Co.
v. Crawford, 141 F.3d 585, 593 (5th Cir. 1998)).
Accordingly, the court held that the venue-selection
provision was “enacted for the purpose of regulating
the business of insurance.” Ibid.
Finally, the court held that compelling arbitration
would conflict with the rehabilitator’s authority to
choose the venue and would substantially impair his
rights.
Thus, the court found that McCarranFerguson exempted the Louisiana statute from
preemption by the FAA.
Similarly, in Ernst & Young, LLP v. Clark, the
Kentucky Supreme Court held that McCarranFerguson precluded FAA preemption of the state’s
insurance liquidation law. 323 S.W.3d 682 (Ky.
2010). In explaining that law was designed to
regulate the business of insurance, the court
correctly observed that the liquidation statute “is
itself the ultimate measure of the state’s regulation
of the insurance business: the take-over of a failing
insurance company.” Id. at 689. The Kentucky
statute vested the Franklin Circuit Court with
exclusive jurisdiction of matters in rehabilitation or
liquidation, which the court described as in conflict
with compelled arbitration pursuant to the FAA. Id.
at 690-92.

22
The majority of federal circuit courts to address
the issue have reached the same conclusion. In
Stephens v. American International Insurance Co.,
the Second Circuit also found Kentucky’s liquidation
act was exempted from FAA preemption by
McCarran-Ferguson. 66 F.3d 41, 43 (2d Cir. 1995).
The court explained that the liquidation statute
“‘protects’
policyholders—whether
they
are
individual policyholders or ceding insurance
companies—by assuring that an insolvent insurer
will be liquidated in an orderly and predictable
manner and the anti-arbitration provision is simply
one piece of that mechanism.” Id. at 45.
Likewise, in Munich American Reinsurance Co. v.
Crawford, the Fifth Circuit held that the exclusivejurisdiction provision in Oklahoma’s insurance
liquidation
statute
triggered
application
of
McCarran-Ferguson and precluded FAA preemption.
141 F.3d at 590. Specifically, in finding that the FAA
would substantially impair application of the state
liquidation statute, the court recognized that
“Oklahoma’s policy of placing ultimate control over
all issues relating to the insolvency proceedings in a
single court is aimed at protecting the relationship
between
the
insurance
company
and
its
policyholders.” Id. at 593.
And in Davister Corp. v. United Republic Life
Insurance Co., the Tenth Circuit held that
McCarran-Ferguson prevented FAA preemption of a
Utah liquidation statute allowing the liquidation
court to enter a blanket stay of all claims against the
insolvent insurer. 152 F.3d 1277, 1281 (10th Cir.
1998). “Allowing a putative creditor to pluck from
the entire liquidation proceeding one discrete issue

23
and force arbitration contrary to the blanket stay
entered by the Utah state court would certainly
impair the progress of the orderly resolution of all
matters involving the insolvent company.” Ibid. The
court described it as “[u]nquestionabl[e]” that such a
situation would “directly impact the policyholders
because it deals with a purported asset of the
insurance company that could be apportioned to
them.” Ibid. “Recognition of that consequence
makes apparent the conflict between the terms of the
FAA and the Utah law.” Ibid.
2. The Iowa Supreme Court’s decision falls on
the opposite side of the split. The court declined to
apply McCarran-Ferguson, focusing on its belief that
the FAA did not invalidate, impair, or supersede the
Iowa Liquidation Act.
Specifically, because the
Liquidators “can bring the same claims in arbitration
as [they] asserted in district court” and there are no
“procedural impediments to a full recovery in
arbitration,” the court found that forcing the
Liquidators to arbitrate would not interfere with the
operation of the liquidation statute. See App.21a.
The court made this ruling without once mentioning
the specific portion of the statute at issue—the
disavowal authority—and also without evaluating
the effect of the “comprehensive scheme for the . . .
liquidation of insurance companies” that the Iowa
legislature expressly adopted.
Iowa Code
§ 507C.1(4)(g).
Unfortunately, the decision below is not alone in
this misguided approach. Other courts have likewise
failed to consider the comprehensive liquidation
scheme created by state legislatures for insurance
liquidations.
For example, in Suter v. Munich

24
Reinsurance Co., the Third Circuit held that
compelling arbitration pursuant to the FAA would
not impair the New Jersey liquidation statute,
claiming that “the mere fact that policyholders may
receive less money does not impair the operation of
any provision of New Jersey’s Liquidation Act.” 223
F.3d 150, 161 (3d Cir. 2000).4
In Atkins v. CGI Technologies & Solutions, Inc.,
the Sixth Circuit held it improper to broadly evaluate
the liquidation statute as a whole; rather, the court
said the focus should be on “whether the particular
action under federal law would directly impair” state
law regulation of insurance. 724 F. App’x 383, 392
(6th Cir. 2018). In that case, the court held that
compelling arbitration would not violate Kentucky’s
exclusive-jurisdiction provision (described supra at
21-22), because the case had already been removed
from state to federal court. Ibid.
Next, in another opinion reviewing a motion to
compel arbitration filed by Milliman in a case
against a CO-OP liquidator, the Nevada Supreme
Court declined to issue an extraordinary writ,
finding the high bar necessary for such relief was not
met. Richardson, 2019 WL 7019006, at *1. The
opinion contained only cursory analysis of McCarranFerguson, but the Court expressed skepticism at its
application, noting that the liquidator initiated the
4 McCarran-Ferguson was a secondary issue in Suter,
asserted by the liquidators as an alternative basis to resolve the
case. The court also ruled against the liquidators on the
primary argument—whether a term in the parties’ contract
constituted a waiver of the right of removal under the
Convention Act—a conclusion reached over then-Judge Alito’s
dissent. See Suter, 223 F.3d at 162-65 (Alito, J., dissenting).

25
suit on behalf of the defunct insurer and that the
liquidator asserted both breach-of-contract and tort
claims. Ibid.
Finally, in yet another decision involving
Milliman’s efforts to compel arbitration against a
CO-OP in liquidation—this time in federal court—
the Eastern District of Kentucky ruled that
McCarran-Ferguson did not exempt Kentucky’s
insurance
liquidation
act
from
preemption.
Milliman, Inc. v. Roof, 353 F. Supp. 3d 588, 604 (E.D.
Ky. 2018). In so holding, the court reached a
conclusion directly contrary to the Kentucky
Supreme Court’s opinion in Ernst & Young, 323
S.W.3d at 689 (discussed supra). These opposite and
irreconcilable decisions illustrate that this is issue is
dividing even state and federal courts within the
same state evaluating McCarran-Ferguson’s effect on
the same state statute.
As these discussions demonstrate, state and
federal courts are divided on the interaction between
McCarran-Ferguson and the FAA in the context of
insurance liquidations. While the majority view
holding that state liquidation statutes are exempt
from FAA preemption is plainly correct, the Court’s
intervention to resolve this split is warranted. The
current—and expanding—national patchwork of
varying applications of these two federal statutes is
simply unsustainable. That is especially true for the
specific issue in this case, as a variety of courts have
issued strikingly conflicting opinions on the same
question involving the same respondent.
3. For two reasons, it should have been easy for
the Iowa Supreme Court to avoid landing on the
wrong side of the split in authority.

26
First, the specific provision the court found
preempted by the FAA is the Liquidators’ ability to
disavow contracts. There is little question that
specific provision was passed to regulate the business
of insurance and that it would be substantially
impaired by a ruling that a contract cannot be
disavowed if it contains an arbitration clause. But
the Iowa Supreme Court did not even mention the
disavowal authority in its McCarran-Ferguson
analysis. Had it properly focused its analysis on the
statutory provision at issue, it would have avoided
the errant ruling.
Ironically, it is the cases refusing to apply
McCarran-Ferguson that have highlighted the
importance of focusing on the particular statutory
provision involved; indeed, that was the thrust of the
Sixth Circuit’s decision in Atkins. See 724 F. App’x
at 392. In fact, it was the same argument Milliman
made, albeit unsuccessfully, to the Louisiana
Supreme Court. Donelon, 2020 WL 2306075, at *67.5 Suffice it to say, no matter the scope of analysis,
the Iowa Supreme Court erred. If the liquidation
statute is considered as a whole, McCarran-Ferguson
should apply for the reasons articulated by the
majority view above. And narrowing the aperture
only helps the Liquidators’ position, as McCarranFerguson would plainly protect the Liquidators’
disavowal authority.

5 It remains unsettled whether U.S. Department of Treasury
v. Fabe, 508 U.S. 491 (1993), requires an analysis of a specific
provision of a statute or consideration of the statute as a whole.
See, e.g., Crawford, 141 F.3d at 592 (“Fabe’s holding in this
respect is simply unclear.”).

27
Second, the Liquidators filed this case “on behalf
of the company, policyholders, creditors and other
impacted parties” and asserted only tort claims.
Some courts evaluating cases in which liquidators
sued on behalf of only the company—and asserted
breach-of-contract claims arising from the same
contract containing the arbitration clause—have held
the potential impact on policyholders is too
attenuated to implicate McCarran-Ferguson under
this Court’s decision in Fabe, 508 U.S. at 501. See
Suter, 223 F.3d at 161. While the Liquidators
disagree with that conclusion, such a situation is
simply not present here.
Despite these straightforward grounds on which
the Iowa Supreme Court should have applied
McCarran-Ferguson, it failed to do so. Instead, the
decision below exacerbates an established and
deepening split among the courts. This Court should
resolve it.
III. The Questions Presented Are Extremely
Important And Warrant This Court’s
Review Now.
The chief purpose of the Iowa Liquidation Act is
the “protection of the interests of insureds, claimants,
creditors, and the public.” Iowa Code § 507C.1(4).
Millions of dollars of funds belonging to policyholders
and taxpayers are on the line in this case alone, in a
liquidation that is supposed to occur under the
scrutiny of the public eye.
Dissenting from the decision below, Justice Appel
explained the detrimental impact of the court’s
errant ruling, chronicling the litany of issues
resulting from the decision and describing the
outcome as “flatly contrary to the traditional historic

28
commitment of the State of Iowa to regulating the
insolvency of insurance companies and the statutory
acquiesce of Congress in the broad exercise of that
authority unfettered by federal meddling through
bankruptcy proceedings or the FAA.”
App.54a.
Justice Appel continued:
The insurance commissioner, a public official
charged with representing the public interest,
seeks to chase after potential wrongdoers who
have allegedly, through their torts, caused untold
damage on members of the Iowa public. The
catastrophic failure of the health insurance entity
left countless Iowans to scramble. The interests
of Iowa healthcare providers who relied upon
CoOportunity for timely payment were no doubt
threatened. The case demands a thorough airing
and public accountability. Yet, according to the
majority,
the
dispute
will
be
handled
confidentially in some office in New York applying
New York law pursuant to the cramped remedies
provided by the private insider contract.
App.55a.
Perhaps most telling of the need for this Court’s
urgent review, various state courts are reaching
different conclusions about the interaction of the
FAA with state liquidation statutes arising from this
same Respondent’s efforts to enforce arbitration
agreements against liquidators of defunct CO-OPs.
App.16a-21a; Donelon, 2020 WL 2306075, at *6-7;
Richardson, 2019 WL 7019006, at *1. That conflict
alone warrants this Court’s review now, not to
mention the broader conflicts discussed above.
Finally, 19 of the original 23 CO-OP entities have
now closed. See Health CO-OP, National Association

29
of Insurance Commissioners (Feb. 12, 2020),
https://content.naic.org/cipr_topics/topic_health_co_o
p.htm. These liquidation proceedings, coupled with
those of traditional insurers, illustrate that the
questions presented are timely and necessitate the
Court’s resolution.
Given the basis for the Iowa Supreme Court’s
decision—that the FAA preempts the Liquidators’
statutory disavowal authority—this case presents an
ideal vehicle to confirm the purely legal holding that
the FAA preserves generally applicable contract
defenses. And, to the extent the Court reaches it,
this case squarely presents the McCarran-Ferguson
issue as well. The decision below flouts this Court’s
established authority on both questions. This Court
should not allow that deviation to stand and fester in
liquidation proceedings nationwide.
CONCLUSION
This Court should grant the petition.
Respectfully submitted,
DOUGLAS J. SCHMIDT
KIRSTEN A. BYRD
MICHAEL T. RAUPP
Counsel of Record
HUSCH BLACKWELL LLP
4801 Main St., Suite 1000
Kansas City, MO 64112
(816) 983-8000
michael.raupp
@huschblackwell.com
Counsel for Petitioners
August 28, 2020

APPENDIX

1a
APPENDIX A
IN THE SUPREME COURT OF IOWA
No. 18-0335
Filed April 3, 2020
DOUG OMMEN, in His Capacity as Liquidator of
CoOportunity Health, and DAN WATKINS, in His
Capacity as Special Deputy Liquidator of
CoOportunity Health,
Appellees,
vs.
STEPHEN RINGLEE, DAVID LYONS, and
CLIFFORD GOLD,
Defendants,
and
MILLIMAN, INC., KIMBERLEY HIEMENZ, and
MICHAEL STRUM,
Appellants.

Appeal from the Iowa District Court for Polk
County, Jeanie K. Vaudt, Judge.

2a
The defendants appeal the district court’s denial of
their motion to dismiss and compel arbitration.
REVERSED
AND
REMANDED
WITH
DIRECTIONS.
Stephen H. Locher of Belin McCormick, P.C., Des
Moines, Reid L. Ashinoff and Justin N. Kattan of
Dentons US LLP, New York, New York, Stephen R.
Eckley (until withdrawal), Matthew C. McDermott,
and Christopher J. Jessen of Belin McCormick, P.C.,
Des Moines, for appellants.
Kirsten A. Byrd of Husch Blackwell LLP, Kansas
City, Missouri, and Kevin J. Driscoll and John David
Hilmes of Finley Law Firm, P.C., Des Moines, for
appellees.
CHRISTENSEN, Chief Justice.
In 2014, a multimillion dollar Iowa-based healthinsurance provider collapsed. The question we must
answer is whether a court-appointed liquidator of the
now-insolvent health insurer, pursuing common law
tort claims against a third-party contractor, is bound
by an arbitration provision in a preinsolvency
agreement between the health insurer and the thirdparty contractor.
The plaintiff in this case is a court-appointed
liquidator of an insolvent health-insurance provider.
Prior to its insolvency, the health-insurance provider
entered into an agreement with a third-party
contractor for actuarial consulting services. The
third-party contractor assisted the health-insurance
provider in securing federal funding approval and
setting rates. One year after the health-insurance

3a
provider began operations, it was declared insolvent
and placed into liquidation.
The liquidator of the health-insurance provider
filed a petition against the third-party contractor,
asserting common law tort damages for preliquidation
work the contractor performed under the agreement.
The third-party contractor submitted a motion to
dismiss and compel arbitration because the
agreement between itself and the health-insurance
provider contained an arbitration provision.
The district court denied the third-party
contractor’s motion.
It determined that the
liquidator’s claims did not arise out of or relate to the
agreement, that the Iowa Liquidation Act precludes
arbitration of the liquidator’s claims, and that the
McCarran-Ferguson Act reverse preempts the
Federal Arbitration Act (FAA). The third-party
contractor appealed the judgment, and we retained
the appeal.
On our review, we conclude the court-appointed
liquidator is bound by the arbitration provision
because, under the principles of contract law and as
pled, the liquidator stands in the shoes of the healthinsurance provider and is bound by the preinsolvency
arbitration agreement. Therefore, the liquidator’s
claims cannot be detached from the contractual
relationship between the health-insurance provider
and the third-party contractor, pursuant to which all
of the preinsolvency work was performed. We also
conclude the liquidator cannot use Iowa Code section
507C.21(k) (2017) to disavow a preinsolvency
agreement that the third-party contractor already
performed. Finally, in this case, the McCarranFerguson Act does not permit reverse preemption of

4a
the FAA when the liquidator asserts common law tort
claims against a third-party contractor. Courts in
other states have unanimously required liquidators to
arbitrate their claims against the same third-party
contractor under the same arbitration provision.
I.
Background Facts and Proceedings.
Because we are reviewing a ruling on a motion to
dismiss, we take as true the petition’s well-pled facts.
See Karon v. Elliot Aviation, 937 N.W.2d 334, 335
(Iowa 2020); Shumate v. Drake Univ., 846 N.W.2d 503,
507 (Iowa 2014).
Doug Ommen and Dan Watkins are courtappointed
liquidators
of
the
now-insolvent
CoOportunity Health—an Iowa-based insurer.1
CoOportunity was a nonprofit health insurer
launched under the Affordable Care Act. In 2012,
CoOportunity secured a $145 million federal start-up
loan to launch the company. Member enrollment
began in October 2013 and CoOportunity started the
coverage of healthcare claims in January 2014. After
one year of operation, CoOportunity faced significant
financial distress; it reported $163 million in losses.
CoOportunity was declared insolvent and placed into
liquidation by a Final Order of Liquidation on March
2, 2015.
The liquidator of CoOportunity filed a petition
against Milliman and the founders of CoOportunity,
asserting common law tort damages for preliquidation
work Milliman performed for CoOportunity pursuant
to a 2011 Consulting Services Agreement (2011
Agreement). Milliman is an actuarial and consulting
We will refer to the court-appointed liquidators, Doug
Ommen and Dan Watkins, as “the liquidator.”
1

5a
firm. Before CoOportunity secured its $145 million
loan, the federal government, on July 28, 2011,
announced a funding opportunity inviting nonprofit
health insurance companies, such as CoOportunity, to
apply for federal funding. CoOportunity relied on
Milliman to secure federal funding approval, set rates,
and provide other actuarial work. On September 30,
2011, a CoOportunity founder signed the 2011
Agreement for Milliman to provide “consulting
services” including “general actuarial consulting
services.” The liquidator’s petition seeks to recover
millions in losses sustained by CoOportunity “as a
result of the professional negligence, breach of
fiduciary duty, and reckless, willful, or intentional
misconduct by the actuarial firm, Milliman, Inc.”
Milliman submitted a motion to dismiss and
compel arbitration pursuant to Iowa arbitration laws
and the FAA. It indicated the liquidator’s claims
arose out of and related to its engagement by
CoOportunity pursuant to the 2011 Agreement. The
2011 Agreement contained an arbitration provision
which stated any dispute “will be resolved by final and
binding arbitration.”
The district court entered an order denying
Milliman’s motion to dismiss and compel arbitration.
It determined the liquidator’s claims did not arise out
of or relate to the 2011 Agreement, the liquidator
disavowed the 2011 Agreement, the Iowa Liquidation
Act precluded arbitration of the liquidator’s claims
against Milliman, and the McCarran-Ferguson Act
reverse preempted the FAA.
Milliman appealed the district court’s order, which
we retained.

6a
II.
Standard of Review.
The denial of a motion to compel arbitration is
reviewed for correction of errors at law. Bullis v. Bear,
Stearns & Co., 553 N.W.2d 599, 601 (Iowa 1996); see
Heaberlin Farms, Inc. v. IGF Ins., 641 N.W.2d 816,
818, 823 (Iowa 2002).
III. Analysis.
This case presents the novel issue of whether a
court-appointed liquidator of a now-insolvent health
insurer, pursuing common law tort claims against a
third-party contractor, is bound by an arbitration
provision in a preinsolvency agreement between the
health insurer and the third-party contractor. The
relevant portion of the arbitration provision in this
case states,
In the event of any dispute arising out of or
relating to the engagement of Milliman by
Company, the parties agree that the dispute will
be resolved by final and binding arbitration
under the Commercial Arbitration Rules of the
American Arbitration Association.
(Emphasis added.) This written provision to resolve
any dispute by arbitration is central to the issue before
us. We must determine whether the parties are bound
to that arbitration agreement. We note that courts in
other jurisdictions have unanimously required the
liquidator to honor the same arbitration provision in
pursuing claims against Milliman. Milliman, Inc. v.
Roof, 353 F. Supp. 3d 588, 603-04, 606 (E.D. Ky. 2018)
(granting Milliman’s petition to compel arbitration of
the tort and contract claims brought against it by the
liquidator of an insolvent Kentucky healthcare
cooperative); Donelon v. Shilling, 2017 CW 1545, 2019
WL 993328, at *13–14 (La. Ct. App. Feb. 28, 2019)

7a
(reversing the district court’s denial of Milliman’s
motion to compel arbitration and ordering arbitration
of the Louisiana Insurance Commissioner’s claims
against Milliman); State ex rel. Richardson v. Eighth
Judicial Dist. Ct., No. 77682, 2019 WL 7019006, at *1
(Nev. Dec. 19, 2019) (order denying petition for writ of
mandamus) (allowing Milliman’s motion to compel
arbitration to proceed and rejecting liquidator’s
argument that arbitrating her common law damages
claims against Milliman would “thwart the insurance
liquidator’s broad statutory powers and the general
policy under” Nevada law). We reach the same
conclusion.
A. Is the Liquidator Bound by the
Preinsolvency Arbitration Agreement? The
thrust of the FAA, 9 U.S.C. §§ 1–14 (Supp. IV 2017),
declares a written agreement to arbitrate in “a
contract evidencing a transaction involving commerce
. . . shall be valid, irrevocable, and enforceable, save
upon such grounds as exist at law or in equity for the
revocation of any contract.” Id. § 2. Essentially,
section 2 of the FAA is a “congressional declaration of
a liberal federal policy favoring arbitration
agreements.” Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 24, 103 S. Ct. 927, 941
(1983). A party to the arbitration agreement may
petition a court for an order to compel arbitration. 9
U.S.C. § 4; Bullis, 553 N.W.2d at 601. Where the
arbitrability of a dispute between parties occurs in
state court, as is the case here, the FAA governs.
Moses H. Cone Mem’l Hosp., 460 U.S. at 24, 103 S. Ct.
at 941. According to the Supreme Court, the FAA
“places arbitration agreements on an equal footing
with other contracts, and requires courts to enforce
them according to their terms.” Rent-A-Ctr., W., Inc.

8a
v. Jackson, 561 U.S. 63, 67, 130 S. Ct. 2772, 2776
(2010) (citation omitted).
States may regulate
arbitration agreements under general principles of
contract law, and states may even invalidate
arbitration agreements under the same grounds for
the revocation of any contract. Allied-Bruce Terminix
Cos. v. Dobson, 513 U.S. 265, 281, 115 S. Ct. 834, 843
(1995). States, however, may not decide a contract is
fair enough to enforce its terms but not fair enough to
enforce its arbitration agreement. Id. That type of
state policy is made unlawful by the FAA and would
place arbitration agreements on an unequal footing
with other contracts, contrary to the FAA’s language
and congressional intent. Id. Congress’s intent,
according to Southland Corp. v. Keating, is to
“foreclose state legislative attempts to undercut the
enforceability of arbitration agreements.” 465 U.S. 1,
16, 104 S. Ct. 852, 861 (1984). Doubts about the scope
of arbitrable issues are to be resolved in favor of
arbitration. Moses H. Cone Mem’l Hosp., 460 U.S. at
24-25, 103 S. Ct. at 941.
The liquidator asserts arbitration cannot be
compelled because he did not sign the 2011 Agreement
that contained the arbitration provision. The parties
do not dispute the liquidator did not sign the 2011
Agreement.
Instead of categorically banning
nonsignatories from arbitration as the liquidator
suggests, we believe the analysis depends on general
principles of contract law. As we stated in Bullis,
“Whether one is bound by an arbitration agreement
that she did not sign depends on the general principles
of contract law . . . .” 553 N.W.2d at 602; see Arthur
Andersen LLP v. Carlisle, 556 U.S. 624, 631, 129 S. Ct.
1896, 1902 (2009); Rent-A-Ctr., Inc. v. Iowa Civil
Rights Comm’n, 843 N.W.2d 727, 732–33 (Iowa 2014).

9a
Our caselaw discussing whether a court-appointed
liquidator is bound to a preinsolvency arbitration
agreement is sparse. In Rent-A-Center, we held the
FAA’s reach did not extend to a public agency that was
not a party to the arbitration agreement nor “a standin for a party.” 843 N.W.2d at 736. We looked to
whether the agency’s claims were “merely derivative”
of the employee’s claims and whether the agency
simply “‘[stood] in the employee’s shoes’ or act[ed] as
a ‘proxy’ for the employee.” Id. at 734 (quoting EEOC
v. Waffle House, Inc., 534 U.S. 279, 297–98, 122 S. Ct.
754, 766 (2002)). Because the agency in Rent-A-Center
was “acting in its prosecutorial capacity” and its
claims were “independent of [the employee’s] own
claims, in order to protect the public interest,” it was
not bound to arbitration under the FAA. Id. at 737.
The arbitration agreement between the employee and
Rent-A-Center did not “displace any independent
authority” the agency had “to investigate and rectify
violations” of the Iowa Civil Rights Act. Id. at 741
(quoting Preston v. Ferrer, 552 U.S. 346, 359 n.7, 128
S. Ct. 978, 987 n.7 (2008)).
As the liquidator has pled his case against
Milliman, the liquidator’s claims are a derivative of
another party’s claims, in this case, CoOportunity.2
More squarely on point is Roth v. Evangelical
To the extent the liquidator attempts to bring the
Department of Health and Human Services (HHS) or “state and
federal regulators” within the ambit of its misrepresentation
claims, those entities are not included in the limited statutory
authority granted a liquidator to prosecute claims on behalf of
specific insurer stakeholders. See Iowa Code § 507C.21(m)
(granting liquidator authority to “[p]rosecute an action on behalf
of the creditors, members, policyholders or shareholders of the
insurer against an officer of the insurer, or any other person”).
2

10a
Lutheran Good Samaritan Society, 886 N.W.2d 601
(Iowa 2016). There, we regarded a wrongful-death
claim brought by a personal representative as a claim
that stands in the shoes of the decedent, not as an
independent claim. Id. at 608–09. We explained,
“[W]hen a personal representative brings a wrongfuldeath action against a party with whom the decedent
entered into a binding arbitration agreement, the case
is subject to arbitration.” Id. at 608. In Iowa, the
wrongful death statute did not create a new cause of
action in the decedent’s survivors. Id. Rather, it
preserved the rights and liabilities a decedent had at
the time of his death. Id.
In this case, the liquidator’s petition is on behalf of
CoOportunity and seeks to recover damage for the
financial loss to CoOportunity. The petition states the
liquidator’s action is to recover millions in losses
sustained by CoOportunity “as a result of the
professional negligence, breach of fiduciary duty, and
reckless, willful, or intentional misconduct by the
actuarial firm, Milliman, Inc.” This authority is
pursuant to the Final Order of Liquidation, which
vests with the liquidator “the title to the property,
contracts, and rights of action and the books and
records of CoOportunity” and the right to “carry out
all direct, indirect and/or related aspects of the
liquidation of CoOportunity.” What matters here is
that in this petition the liquidator brings common law
tort claims for alleged damages to CoOportunity.
It makes no difference that the liquidator frames
the complaint in tort, because Milliman’s alleged
duties arise solely from the 2011 Agreement

11a
containing the arbitration provision.3 Without the
2011 Agreement, Milliman would not have performed
any work that could give rise to claims by the
liquidator. The liquidator, standing in CoOportunity’s
shoes, may not avoid a contractual arbitration
agreement merely by “casting its complaint in tort.”
Sweet Dreams Unlimited, Inc. v. Dial-A-Mattress Int’l,
Ltd., 1 F.3d 639, 643 (7th Cir. 1993) (quoting In re Oil
Spill by “Amoco Cadiz” Off Coast of France Mar. 16,
1978, 659 F.2d 789, 794 (7th Cir. 1981)); see Chelsea
Family Pharmacy, PLLC v. Medco Health Sols., Inc.,
567 F.3d 1191, 1198 (10th Cir. 2009) (“Focusing on the
facts rather than on a choice of legal labels prevents a
creative and artful pleader from drafting around an
otherwise-applicable arbitration clause.”); Hudson v.
ConAgra Poultry Co., 484 F.3d 496, 499–500 (8th Cir.
2007) (“Under the Federal Arbitration Act, we
generally construe broad language in a contractual
arbitration provision to include tort claims arising
from the contractual relationship[.]”); Taylor v. Ernst
Cf. Donelon, 2019 WL 993328, at *11 (distinguishing claims
in that case against Milliman as actuary from breach of an
auditor’s statutory duties involved in Taylor v. Ernst & Young,
L.L.P., 958 N.E.2d 1203, 1210–12 (Ohio 2011), which did not
require reference to contractual obligations to ascertain extent of
duties). As in Donelon, the liquidator here identified no statutory
duties owed by Milliman, but instead relied solely on Milliman’s
contractual relationship with CoOportunity and its
accompanying contractual obligations to support each of his
claims. To the extent the liquidator alleges generalized harm to
CoOportunity’s creditors or policyholders, the petition fails to
identify any noncontractual duties owed by Milliman to those
policyholders or creditors. We therefore have no occasion to
consider whether nonparty tort claims would be subject to the
contractual arbitration provision.
3

12a
& Young, L.L.P., 958 N.E.2d 1203, 1222 (Ohio 2011)
(O’Donnell, J., concurring in part and dissenting in
part) (“[T]he duties imposed by Ohio law that E & Y
allegedly failed to perform are the same as those set
forth in the engagement letter, and whether cast in
tort or contract, the issue is one that falls within the
broad scope of the arbitration provision.”).4

In Taylor, the Ohio Supreme Court majority held that the
liquidator was not required to arbitrate because his claims did
not “arise from the contract containing the arbitration clause.”
958 N.E.2d at 1213 (majority opinion). The same opinion
recognizes the converse that liquidators are bound to arbitrate
when asserting claims arising from a contract requiring
arbitration. Id. at 1214. That is what we have here. Indeed, as
the Ohio Supreme Court has held, “it would be inequitable to
allow [the liquidator] to avoid arbitration while simultaneously
seeking a substantive benefit of the contract that contained the
arbitration clause.” Id.; Gerig v. Kahn, 769 N.E.2d 381, 385-86
(Ohio 2002) (enforcing arbitration agreement against
nonsignatory liquidator); Covington v. Lucia, 784 N.E.2d 186,
190–91 (Ohio Ct. App. 2003) (“The overriding principle in Gerig,
and the cases cited therein, is that when seeking to enforce rights
under a contract, a nonsignatory can be bound by that contract’s
arbitration clause.”).
4

Courts have noted insurance liquidators act for the public
interest. See, e.g., Mitchell v. Taylor, 43 P.2d 803, 804 (Cal. 1935)
(en banc); Arthur Andersen v. Super. Ct., 79 Cal. Rptr. 2d 879,
882 (Ct. App. 1998). But those cases did not involve claims
arising from an insolvent insurer’s agreement with a third party
that included an arbitration clause. Neither the Iowa legislature
nor the Iowa Insurance Commissioner has prohibited health
insurance co-ops from including arbitration provisions in
contracts with third-party contractors such as Milliman. See,
e.g., Iowa Code § 505.8. It is too late for the liquidator to impose
such a provision in this case. The liquidator, having stepped into
the shoes of CoOportunity, cannot now after-the-fact cherry-pick
his agreement with Milliman and decide he is bound only by the
parts he likes.

13a
Here, the arbitration provision is broad: “In the
event of any dispute arising out of or relating to the
engagement of Milliman by Company” the parties
agree to arbitrate. (Emphasis added.) In light of the
arbitration provision’s general breadth, we have no
reason to believe the parties somehow meant to
exclude postinsolvency disputes from arbitration. See
Quackenbush v. Allstate Ins., 121 F.3d 1372, 1380 (9th
Cir. 1997); Bennett v. Liberty Nat’l Fire Ins., 968 F.2d
969, 972 (9th Cir. 1992) (“[B]ecause the liquidator,
who stands in the shoes of the insolvent insurer, is
attempting to enforce [the insolvent insurer’s]
contractual rights, she is bound by [the insolvent
insurer’s] pre-insolvency [arbitration] agreements.”
(Footnote omitted.)).
Where the language of the arbitration provision is
broad, a claim will proceed to arbitration if the
underlying allegations “simply touch” matters covered
by the provision. Leonard v. Del. N. Cos. Sport Serv.,
Inc., 861 F.3d 727, 730 (8th Cir. 2017) (quoting Unison
Co. v. Juhl Energy Dev., Inc., 789 F.3d 816, 818 (8th
Cir. 2015)). The liquidator’s claims arise out of and
relate to the work Milliman completed pursuant to the
2011 Agreement with CoOportunity. The petition sets
forth claims that relate to either Milliman’s actuarial
consulting services or to a conflict of interest in the
2011 Agreement.
For instance, the liquidator’s
petition states,
CoOportunity retained the Milliman
Defendants to provide actuarial professional
services for purposes of working on critical
aspects of the company’s plans, including initial
and later federal funding applications, rate

14a
setting, and financial reporting to federal and
state regulators.
....
The terms of the agreement between
CoOportunity and Milliman created an
improper incentive for Milliman to convince
federal officials to approve and fund the project.
. . . The improper financial motivation
compromised Milliman’s objectivity and
independence in certifying the feasibility study
and business plan.
Milliman did not disclose [its] financial
interest in CoOportunity (and the other COOps) receiving federal funding approval or its
potential conflict of interest to HHS . . . .
The liquidator’s claims cannot be detached from the
contractual relationship between Milliman and
CoOportunity, pursuant to which all of the work was
performed. Therefore, under the principles of contract
law, we conclude the liquidator stands in
CoOportunity’s shoes; his claims are merely
derivative of CoOportunity’s claims. See Roth, 886
N.W.2d at 608; Rent-A-Ctr., 843 N.W.2d at 736.
Accordingly, the liquidator is bound by the
preinsolvency arbitration agreement. See Donelon,
2019 WL 993328, at *9 (holding that the Louisiana
Insurance
Commissioner,
despite
being
a
nonsignator, is bound by Milliman’s arbitration
agreement).
Our conclusion is in accordance with federal
jurisprudence, holding that a state insurance
liquidator must arbitrate common law damages
claims asserted against third-party contractors for

15a
preinsolvency work pursuant to an agreement. See,
e.g., Suter v. Munich Reins., 223 F.3d 150, 161-62 (3d
Cir. 2000); Quackenbush, 121 F.3d at 1382; Bennett,
968 F.2d at 970; Milliman, Inc., 353 F. Supp. 3d at
603-04.
B. Can the Court-Appointed Liquidator
Disavow the 2011 Agreement Pursuant to Iowa
Code
Section
507C.21(k)?
The liquidator
alternatively claims arbitration cannot be compelled
because Iowa law permits the court-appointed
liquidator to disavow the entire 2011 Agreement.
Pursuant to the Iowa Liquidation Act, the liquidator
may “[e]nter into contracts as necessary to carry out
the order to liquidate and affirm or disavow contracts
to which the insurer is a party.”
Iowa Code
§ 507C.21(k) (emphasis added).
The liquidator
attempts to shoehorn the power to disavow a contract
into the FAA’s “grounds as exist at law” language for
the revocation of any contract. See 9 U.S.C. § 2.
However, permitting the liquidator to disavow the
entire 2011 Agreement may run afoul of the FAA’s
mandate to place arbitration agreements on an equal
footing with other contracts.
See Allied-Bruce
Terminix Cos., 513 U.S. at 281, 115 S. Ct. at 843. The
issue with the liquidator’s position is that it attempts
to disavow a contract that Milliman already
performed. The 2011 Agreement does not vanish.
Milliman rendered its consulting services under the
2011 Agreement, and the rights established under
that contract still exist. It is difficult to reconcile the
ability of the liquidator to disavow the 2011
Agreement while still retaining the ability to assert
claims against Milliman pursuant to the same
contract. See Costle v. Fremont Indem. Co., 839 F.
Supp. 265, 272 (D. Vt. 1993) (“[I]f a liquidator seeks to

16a
enforce an insolvent company’s rights under a
contract, she must also suffer that company’s
contractual liabilities.”); Taylor, 958 N.E.2d at 1221
(O’Donnell, J., concurring in part and dissenting in
part) (“[T]he liquidator cannot prosecute an action for
breach of contract or one involving a contract on the
authority conferred in [the Ohio Liquidation Act] and
yet seek to escape arbitration by disavowing an
arbitration provision contained in that contract
pursuant to [the Ohio Liquidation Act].”).
Disavowing the entire 2011 Agreement, while
allowing the liquidator to assert claims pursuant to
the same agreement, amounts to nothing more than
singling out the arbitration provision for evasion. The
liquidator cannot pick and choose which provisions in
the contract existed. To avoid treating the arbitration
provision as “suspect status,” and to place the
provision on equal footing as other contracts, the
liquidator cannot be permitted to disavow the 2011
Agreement under Iowa Code section 507C.21(k). See
Doctor’s Assocs., Inc. v. Casarotto, 517 U.S. 681, 687,
116 S. Ct. 1652, 1656 (1996). Moreover, if section
507C.21(k) were interpreted to allow disavowal of a
preinsolvency arbitration agreement with a thirdparty contractor, “this would raise serious questions
as to its validity under the Supremacy Clause of the
United States Constitution,” as we explained in Roth.
886 N.W.2d at 611.
C. Does the McCarran-Ferguson Act Permit
Reverse Preemption of the FAA? We must also
consider the McCarran-Ferguson Act. 15 U.S.C.
§§ 1011-15. McCarran-Ferguson establishes “reverse
preemption,” where state law preempts federal law.
This federal statute says,

17a
No Act of Congress shall be construed to
invalidate, impair, or supersede any law
enacted by any State for the purpose of
regulating the business of insurance, or which
imposes a fee or tax upon such business, unless
such Act specifically relates to the business of
insurance. . . .
Id. § 1012(b). For reverse preemption to apply, (1) the
federal statute must not specifically relate to the
business of insurance, (2) the state statute must have
been enacted for the purpose of regulating the
business of insurance, and (3) the federal statute
would, “invalidate, impair, or supersede” the state
statue. Munich Am. Reins. Co. v. Crawford, 141 F.3d
585, 590 (5th Cir. 1998). We will discuss the three
factors as necessary.
The district court, agreeing with the liquidator,
found the Iowa Liquidation Act required the
liquidator’s claims be resolved in a public forum of the
liquidator’s choosing, subject to the rules and
procedures established by the Iowa legislature. The
liquidator asserts requiring arbitration under the
FAA would “invalidate, impair, or supersede”
operation of the Iowa Liquidation Act. Milliman, on
the other hand, questions whether there is any
conflict between the FAA and the Iowa Liquidation
Act. If there is no conflict, McCarran-Ferguson’s
reverse preemption is inapplicable. See id.
The Iowa Liquidation Act authorizes the liquidator
to “[c]ontinue to prosecute and to institute . . . any and
all suits and other legal proceedings.” Iowa Code
§ 507C.21(1)(l) (emphasis added). Pursuant to the
Iowa Liquidation Act, the Final Order of Liquidation
in this case expressly permits the liquidator to sue or

18a
defend CoOportunity in “any necessary forum,”
including “arbitration panels.”
The Liquidator and the Special Deputy are
hereby authorized to deal with the property,
business and affairs of CoOportunity and
CoOportunity’s estate, and, in any necessary
forum, to sue or defend for CoOportunity, or for
the benefit of CoOporunity’s policyholders,
creditors and shareholders in the courts and
tribunals, agencies or arbitration panels of this
state and other states or in any applicable
federal court in the Liquidator’s name as
Commissioner of Insurance of the State of Iowa,
in his capacity as Liquidator, or the Special
Deputy in his capacity as Special Deputy
Liquidator, or in the name of CoOportunity
Health.
(Emphasis added.) The liquidator claims enforcing
the arbitration agreement under the FAA would
frustrate the policy of the Iowa Liquidation Act and
strip the authority to prosecute claims in a
transparent, public forum. The Iowa legislature
stated the purpose of the Iowa Liquidation Act as
follows:
The purpose of this chapter is the protection of
the interests of insureds, claimants, creditors,
and the public, with minimum interference
with the normal prerogatives of the owners and
managers of insurers, through all of the
following:
a.
Early detection of a potentially
dangerous condition in an insurer and prompt
application of appropriate corrective measures.

19a
b.
Improved methods for rehabilitating
insurers, involving the cooperation and
management expertise of the insurance
industry.
c.
Enhanced efficiency and economy of
liquidation, through clarification of the law, to
minimize legal uncertainty and litigation.
d.
Equitable apportionment of any
unavoidable loss.
e.
Lessening the problems of interstate
rehabilitation and liquidation by facilitating
cooperation between states in the liquidation
process, and by extending the scope of personal
jurisdiction over debtors of the insurer outside
this state.
f.
Regulation of the insurance business
by the impact of the law relating to delinquency
procedures and substantive rules on the entire
insurance business.
g.
Providing for a comprehensive
scheme for the rehabilitation and liquidation of
insurance companies and those subject to this
chapter as part of the regulation of the business
of insurance, the insurance industry, and
insurers in this state. Proceedings in cases of
insurer insolvency and delinquency are deemed
an integral aspect of the business of insurance
and are of vital public interest and concern.
Iowa Code § 507C.1(4)(a)–(g).
We disagree with the liquidator that requiring
arbitration under the FAA would invalidate, impair,
or supersede operation of the Iowa Liquidation Act.
Nowhere in the Iowa Liquidation Act is it required
that the liquidator must bring claims in a public

20a
forum. The opposite of the liquidator’s assertion is
true. Iowa granted the liquidator power to prosecute
suits and “other legal proceedings.”
See id.
§ 507C.21(1)(l). The liquidator’s power to prosecute
other legal proceedings is recognized in the Final
Order of Liquidation, which specifically contemplates
that the liquidator may sue or defend CoOportunity in
“arbitration panels.” In fact, the Iowa Liquidation Act
does not prohibit arbitration of the liquidator’s claims
against Milliman. The liquidator frames the issue as
whether enforcing arbitration under the FAA
“invalidates, impairs, or supersedes the enforcement
of the state process designed to protect the interests of
policyholders.” Davister Corp. v. United Republic Life
Ins., 152 F.3d 1277, 1282 (10th Cir. 1998). The case
before us, however, does not involve the disposition of
claims by policyholders. Cf. U.S. Dep’t of Treasury v.
Fabe, 508 U.S. 491, 508, 113 S. Ct. 2202, 2212 (1993)
(holding the Ohio priority statute, “to the extent that
it regulates policyholders,” was exempt from
preemption, but priority given to employees and
general creditors was not free from preemption under
the McCarran-Ferguson Act). The liquidator is not
litigating on behalf of policyholders, and we are not
persuaded that any indirect effects on the
policyholders are sufficient to avoid preemption under
the McCarran-Ferguson Act. The Fabe court noted
the indirect-effects argument “goes too far.” Id. “[I]n
that sense, every business decision made by an
insurance company has some impact on its reliability
. . . and its status as a reliable insurer.” Id. (quoting
Grp. Life & Health Ins. v. Royal Drug Co., 440 U.S.
205, 216–17, 99 S. Ct. 1067, 1076 (1979)).
CoOportunity’s liquidator brings common law tort
claims against a third-party contractor. Requiring

21a
arbitration only alters the forum in which the
liquidator may pursue his common law tort claims.
The interests and rights of policyholders under Iowa’s
statutory scheme are not altered. See Milliman, 353
F. Supp. 3d at 603 (rejecting reverse-preemption and
stating that “[m]andating arbitration in this case does
not alter the disposition of claims of the policy holders
and does not ‘invalidate, impair, or supersede’ the
[Kentucky Liquidation Act] as a whole”).
The arbitration forum does not impede the
liquidator’s ability to conduct an orderly dissolution.
Discovery, including depositions, are permitted in the
arbitration proceedings. The liquidator can bring the
same claims in arbitration as it asserted in district
court, and the liquidator has identified no procedural
impediments to a full recovery in arbitration.
Moreover, the FAA leaves no discretion with the
district courts “to consider public-policy arguments in
deciding whether to compel arbitration under the
FAA.” Quackenbush, 121 F.3d at 1380, 1382. In
short, there is no conflict here between the FAA and
the Iowa Liquidation Act. Accordingly, in this case,
we hold the McCarran-Ferguson Act does not permit
reverse preemption of the FAA.
IV.
Conclusion.
For the aforementioned reasons, we hold the courtappointed liquidator of a now-insolvent health
insurer, pursuing common law tort claims against a
third-party contractor, is bound by an arbitration
provision in a preinsolvency agreement between the
health insurer and the third-party contractor. We
reverse the district court judgment and remand the
case with directions to enter an order compelling
arbitration.

22a
REVERSED
AND
REMANDED
WITH
DIRECTIONS.
All justices concur except Appel, J., who dissents.
#18-0335, Ommen v. Milliman, Inc.
APPEL, Justice (dissenting).
I respectfully dissent. The majority holds that the
Iowa insurance commissioner’s effort to sue a
consulting firm allegedly responsible for the
insolvency of a provider of an Iowa health insurance
to the public under the Affordable Care Act will be
decided by a panel of private arbitrators in New York
applying New York law under the terms of a private
insider agreement rather than by an Iowa judge and
jury in an Iowa courtroom applying Iowa law. The
majority holds that a private insider agreement
between the insurer and its consultants, which
dramatically limits the potential liability of the
consultants to the detriment of policyholders and the
public, is binding on the state’s chief regulator, the
insurance commissioner, in a liquidation proceeding
under Iowa Code chapter 507C even though the
insurance commissioner was not a party to the private
insider agreement. Further, the majority enforces the
private insider agreement even though the insurance
commissioner has exercised the power given to him by
the legislature to disavow the contract.
The panel of private arbitrators which the majority
believes should decide the insurance commissioner’s
case will not be required to permit broad discovery
that the insurance commissioner would be entitled to
under Iowa law. The private arbitrators will meet in
New York and will be required to apply the law of New
York, not the law of Iowa. The private arbitrators

23a
meeting in New York and applying New York law will
determine whether to enforce strict limitations on
damages provided in the private insider agreement
between the founders of the failed health insurance
company and its professional consultants.
The
private arbitrators will decide disputed questions of
law and fact. If they follow the terms of the private
insider agreement, they will be precluded from
awarding punitive damages. Once the panel or
arbitrators operating in private have made their
decision under New York law, the insurance
commissioner will have only strictly limited rights to
appeal the privately determined decision.
Enforcement of the arbitration provision of the
private insider agreement thus establishes a very
favorable terrain for the insider consultants at the
expense of the insureds, creditors, and the public. A
person on the street would understandably see the
application of the private insider agreement against
the insurance commissioner as an example of the big
shots protecting themselves, while the public gets the
shaft.
If this were simply a private business dispute
between signatories to an agreement requiring
arbitration, the sending of this matter to New York for
a private arbitration under New York law with limited
discovery and tightly curtailed remedies might not be
objectionable. But this is not an inconsequential
private dispute between signatories to an agreement
that may properly be decided in confidential
proceedings in some New York high-rise.
This case is infused to the bone with public policy
considerations arising from the catastrophic failure of
a health insurance entity under the Affordable Care

24a
Act. Indeed, the provision of healthcare through
insurance carriers under the Affordable Care Act is
one of the most incandescent public policy issues of
our time. Here, the insurer somehow allegedly
managed to lose $163 million in its first year of
operation, became insolvent in short order, and left
thousands of policyholders to scramble to obtain
alternate coverage.
The public, through the Iowa insurance
commissioner, a nonsignatory to the contract
including the arbitration provision, seeks to hold
those allegedly responsible accountable in a public
proceeding in an Iowa courtroom pursuant to the
commissioner’s broad and comprehensive authority
granted by the legislature in the broad and
comprehensive provisions of Iowa Code chapter 507C
governing the liquidation of insurance companies.
Because the insurance commissioner is a public
official charged with vindicating public interests, he
does not simply “stand in the shoes” of the insurer in
a way that allows the arbitration provision to which
the commissioner never agreed to be enforced against
him. And, in any event, the commissioner has
exercised the power given to him by the legislature to
disavow the private insider contract which the
majority now seeks to enforce.
Here, the insurance commissioner has launched a
claim against an insider claiming, among other
things, malpractice, misrepresentation, breach of
fiduciary duty, and fraud in connection with the
creation and operation of a health insurer in the state
of Iowa. The public interest in this kind of litigation
is enormous. Yet, the majority sees this dispute over
the failure of a health insurer and the resulting public
carnage as a controversy for private and secret

25a
resolution through an unaccountable private
arbitrator outside the comprehensive regulatory
framework adopted by the Iowa General Assembly for
liquidation of insurers.
Does the law support this startling result? The
answer is no.
First, the insurance commissioner as liquidator is
unlike a receiver under the Bankruptcy Code, but is a
public officer who acts on behalf of “insureds,
claimants, creditors [largely healthcare providers],
and the public.” Iowa Code § 507C.1(4) (2017). The
legislature named the insurance commissioner as
liquidator for a reason, namely, to see that a publically
accountable officer is responsible to see that the public
interest, and not that of insiders like Milliman, are
zealously protected. The majority fails to place Iowa’s
insurance liquidation statute in the context of the long
history of intense public regulation of the insurance
industry. The insurance commissioner does not stand
in the shoes of CoOportunity, but stands in the shoes
of the public. Unlike a private wind-down of a
bankrupt local pawnshop, the liquidation of an
insolvent insurance company is the public’s business.
As a result, the insurance commissioner as
liquidator does not merely stand in the shoes of the
insurer but represents broader public interests. As
liquidator, the insurance commissioner is acting
within the scope of his official duties as a public
official. He is charged with protecting not the
insolvent insurance entity, but “the insured,
claimants, creditors, and the public.” Id. The
insurance commissioner is thus not bound by an
arbitration provision in a private insider agreement to
which the commissioner is not a party.

26a
But if there is any doubt, there is a second and
equally powerful reason to affirm the district court.
The legislature in Iowa Code section 507C.21(1)(k)
provided the insurance commissioner with an
extraordinary power, the power to “disavow contracts
to which the insurer is a party.” In other words,
private ordering by third parties and the insurer is not
binding on the insurance commissioner.
In
disavowing a contract, the insurance commissioner
does not stand in the shoes of a private party who has
no power to generally disavow contracts, but in the
shoes of the public.
Importantly, the legislature chose to vest the
insurance commissioner with this extraordinary
power to disavow contracts entered into by the
insurance company without qualification. Id. It
could, of course, have limited that power to executory
contracts, as it has repeatedly done in other contexts,
but it chose not to do so. The broad power to “disavow
contracts” is a manifestation of what before today has
been universally recognized, namely, the strong public
interest in all aspects of the insurance business.
Further, the legislature made clear that the
provisions of the chapter “shall be liberally construed
to effect the purpose” of the chapter, namely,
“protection of the interests of the insureds, claimants,
creditors, and the public.” Iowa Code § 507C.1(3)-(4).
Protection of the interests of “insureds, claimants,
creditors, and the public” is exactly what the
insurance commissioner seeks to do in this case as he
seeks to hold accountable insiders who, allegedly,
contributed to the demise of the entity.
But the majority ignores the legislative direction
to narrowly construe the disavowal language to

27a
protect the insider, Milliman, from public
accountability. The majority drives resolution of the
important issues in this case into the hand of a private
arbitrator by affirmatively amending the statute by
careting in a nonexistent qualifier to limit the
insurance commissioner’s power to disavow to
“executory contracts.” But such a limitation, of course,
is totally absent from the statutory provision. Any
such material narrowing of the broad powers of the
insurance commissioner must await legislative action.
In this populist age with abiding concerns about
insider privileges, the prospects of such an insiderprotecting amendment seem rather slim. This court
has no business amending a statute that the political
process has declined to correct.
In light of the unqualified power of the insurance
commissioner to disavow contracts, the majority
understandably resorts to another ground, namely,
that the disavowal by the insurance commissioner,
even if authorized by the plain language of Iowa Code
section 507.21(1)(k), violates the Federal Arbitration
Act (FAA). There is federal caselaw indicating that a
state statute that discriminates against arbitration
clauses violates the FAA.
But, the broad and
unqualified disavowal provision of Iowa Code section
507C.21(1)(k) does not discriminate against
arbitration provisions in a way that contravenes even
the extraordinarily muscular interpretations of the
FAA by the United States Supreme Court.
And, federal law has affirmatively protected the
ability of states to engage in the regulation of the
business of insurance through enactment of the
sweeping McCarran-Ferguson Act.
Under the
McCarran-Ferguson Act, “[n]o Act of Congress shall
be construed to invalidate, impair or supersede any

28a
law enacted by any State for the purpose of regulating
the business of insurance. . . .” 15 U.S.C. § 1012(b)
(Supp. IV 2017).
McCarran-Ferguson has been
interpreted to require “reverse preemption,” namely
that the reach of any act of Congress is preempted in
the face of a state’s regulation of the business of
insurance.
A threshold question under McCarran-Ferguson is
whether the liquidation of an insurance company by
the insurance commissioner is “for the purpose of
regulating the business of insurance.” The Iowa
legislature certainly thinks so.
The legislature
declared that proceedings in cases of insurance
insolvency “are deemed an integral aspect of the
business of insurance.” Iowa Code § 507C.1(4)(g).
That conclusion seems unassailable in light of the
comprehensive scheme provided for the liquidation of
insurance companies under Iowa Code chapter 507C.
As a result, to the extent there is a conflict between
Iowa Code section 507C.21(1)(k) and the FAA, it is the
FAA, and not the Iowa statutory provision regulating
the business of insurance, that would be
unenforceable.
Further, for reasons that will be explained below,
the sending of this important public litigation off to
New York will substantially frustrate the ability of the
Iowa insurance commissioner to implement the
provisions of Iowa Code chapter 507C. As a result, the
insider private agreement cannot be enforced through
application of the FAA; instead, to the extent there is
a conflict, the FAA is reversed preempted by the
provisions of Iowa law.
For these reasons, the district court refused to
dismiss the action brought by the insurance

29a
commissioner and send the file off to a private
arbitrator in New York City to apply New York state
law. The district court got it right. For those not yet
convinced, here are the details.
I.
Factual and Procedural Background.
A. Overview of the Amended Petition. The
Iowa insurance commissioner brought an amended
petition in Polk County district court against
Milliman, Inc., two of its actuaries, and three
individuals alleged to be the founders of a failed
insurance company called CoOportunity Health, Inc.
The more than fifty-page petition details the failure of
CoOportunity and alleges a total of ten causes of
action against the defendants.
The insurance
commissioner demanded a jury trial in the amended
petition.
According to the petition, CoOportunity was one of
twenty-three entities established throughout the
United States under the Affordable Care Act. The
entity was organized under Iowa law and
headquartered in West Des Moines. CoOportunity
opened for enrollment in October of 2013 and started
covering health claims in January 2014.
CoOportunity was in business for only about a
year. During that period of time, the insurance
commissioner alleged that the business suffered
catastrophic losses totaling $163 million dollars. The
insurance commissioner ultimately obtained a
liquidation order from the district court to deal with
the insolvent entity.
Counts I through IV of the amended petition
alleged that the Milliman defendants engaged in
professional malpractice, breached fiduciary duties,
made negligent misrepresentations, and engaged in

30a
intentional and willful or reckless misrepresentations.
Counts V through X of the amended petition alleged
that the founders breached fiduciary duties as
founders; aided and abetted the breach of fiduciary
duty by the Milliman defendants; engaged in a
conspiracy to commit Milliman’s wrongful failure to
meet the standard of care by ignoring the true
financial condition of CoOportunity; were negligent
and failed to act in the best interest of the insurer,
policyholders and creditors; received preferential
payments in the form of bonus and severance
payments; and engaged in prepetition fraudulent
transfers.
Under the majority’s approach in this case, counts
I through IV alleging breach of various duties by the
Milliman defendants would be resolved in New York
arbitration, while the Iowa insurance commissioner’s
claims that the founders aided and abetted Milliman’s
breach of duties and conspired with Milliman to
commit various wrongs would be tried in Iowa district
court.
B. The Consulting Services Agreement.
During the organizational phase of CoOportunity,
Milliman and the founders signed a “Consulting
Services Agreement.”
Milliman was to provide
actuarial and consulting services in connection with
the business. The private insider agreement was
signed by one of the founders and a representative of
Milliman.
The private insider agreement limited the liability
of Milliman under any theory of law, including
negligence, tort, breach of contract, or otherwise, to
three times the professional fee paid to Milliman. The
limitation did not apply, however, to cases involving

31a
intentional fraud or willful misconduct of Milliman.
The private insider agreement declared that the
arbitrators lacked the power to impose punitive or
exemplary damages.
The private insider agreement also markedly
limited the liability of the founders to Milliman. The
founders were not liable for any of Milliman’s fees “in
the event that the health cooperative is dissolved and
does not receive funds to become a going concern.”
The private agreement provided that any disputes
would be resolved by a panel of three arbitrators
pursuant to the commercial arbitration rules of the
American Arbitration Association. Under the private
agreement, the arbitrators have the authority “to
permit limited discovery.” The arbitrators have the
power to shift costs and attorney fees to “the
prevailing party.”
The arbitration “shall be
confidential, except as required by law.”
The consulting services agreement provided that
the construction, interpretation, and enforcement of
the agreement “shall be governed by the substantive
contract law of the State of New York without regard
to its conflict of laws provisions.” As a result, under
the terms of the private insider agreement, the
arbitrators could apply New York state law even
though the forum had no nexus whatsoever to the
underlying facts and, under the conflicts law of the
State of New York, the law of the State of Iowa would
normally apply.
C. District Court Ruling. The Milliman
defendants moved to dismiss the claims against them
and sought an order compelling arbitration pursuant
to the consulting services agreement. The district
court denied the relief sought by Milliman.

32a
According to the district court, the arbitration
provision in the private insider agreement signed by
Milliman and a representative of the founders did not
bind the statutory liquidator. According to the district
court, the insurance commissioner as liquidator did
not merely stand in the shoes of CoOportunity but had
a broad grant of authority to protect policyholders and
creditors by bringing claims.
Accordingly, the
liquidator was not bound by the arbitration provision
of the consulting services agreement.
The district court further noted that the liquidator
had disavowed the consulting services agreement in
its entirety as authorized by Iowa Code section
507C.21(l)(k).
The district court rejected the
argument of the Milliman defendants that the
disavowal authority extended only to “executory
contracts.”
Finally, the district court found that the provisions
of Iowa Code chapter 507C expressly involve “the
business of insurance” and that the case falls within
the meaning of the phrase in United States Supreme
Court precedent. As a result, the district court
declined to compel arbitration of the matter under the
FAA because “the McCarran-Ferguson Act reverse
preempts the FAA and . . . the rights and remedies in
Iowa Code Chapter 507C prevail.”
The Milliman defendants appealed.
II. Because the Insurance Commissioner as
Liquidator Is Acting on Behalf of the Public and
Not a Receiver Simply Standing in the Shoes of
the Insolvent Insurer, the Judgment of the
District Court Should Be Affirmed.
A. Strong Public Interest in the Business of
Insurance.
To begin with, it has long been

33a
recognized that contracts of insurance do not simply
involve the two parties directly involved, but also
affect vital public interests. A leading insurance
authority puts it this way: “Insurance is a highly
regulated industry due to its well-recognized
importance to the public interest.” 1 Steven Plitt et
al., Couch on Insurance § 2:1 (3d ed.), Westlaw
(database updated Dec. 2019) (footnote omitted). As
noted by the United States Supreme Court,
“Government has always had a special relation to
insurance.” Osborn v. Ozlin, 310 U.S. 53, 65, 60 S. Ct.
758, 763 (1940). The Supreme Court later observed
that a state’s police power “extends to all the great
public needs” and “is peculiarly apt when the business
of insurance is involved—a business to which the
government has long had a ‘special relation.’” Cal.
State Auto. Ass’n Inter-Ins. Bureau v. Maloney, 341
U.S. 105, 109, 71 S. Ct. 601, 603 (1951) (first quoting
Noble State Bank v. Haskell, 219 U.S. 104, 111, 31 S.
Ct. 186, 188 (1911); and then quoting Osborn, 310 U.S.
at 65, 60 S. Ct. at 763). See generally Karl L.
Rubinstein, The Legal Standing of an Insurance
Insolvency Receiver: When the Shoe Doesn’t Fit, 10
Conn. Ins. L.J. 309, 314–15 (2004) [hereinafter
Rubinstein, Legal Standing]. An insurance contract
is not an arm’s-length sale of a peppercorn where
market forces may be left alone.
B. Government Interest in Insurance
Insolvency Beyond Narrow Interest of Insurer.
A small dose of historical perspective will demonstrate
the public interest in the liquidation of insurance
companies. Prior to 1898, insurance insolvencies were
subject to federal bankruptcy proceedings and thus
treated like any other business failure. The 1898
Bankruptcy Act removed insurance insolvencies from

34a
bankruptcy proceedings, thereby recognizing that
insurance was affected by the public interest,
regulated by state regulators with specialized
knowledge and expertise, and better handled by state
insurance receivers than bankruptcy trustees. See
Jeffrey E. Thomas & Susan Lyons, The New
Appleman on Insurance Law Library Edition
§ 96.01[1], at 96-3 (2018).
State regulatory frameworks enacted after 1898
differ materially from those in ordinary bankruptcy
proceedings.
[B]ecause insurance is affected by a public
purpose and enforced through the state’s police
powers, policyholders are treated more
favorably than other unsecured creditors.
Bankruptcy law distinguishes between secured
and unsecured creditors and does not afford
favorable treatment to policyholders.
Id. § 96.01[2], at 96-5 to 96-6.
In other words, the fact that an insurance company
crosses into insolvency does not eliminate the public
interest in the business of insurance. As noted by the
United States Supreme Court, “[The] solvency [of
insurers] are of great concern . . . [and the potential
impact of insolvency] demonstrates the interest of the
public in it.” German All. Ins. v. Lewis, 233 U.S. 389,
413, 34 S. Ct. 612 (1914). According to Couch, “The
state has an important and vital interest in the
liquidation of an insolvent insurance company.” 1
Steven Plitt et al., Couch on Insurance § 5:35. Indeed,
[t]he solvency of insurers is . . . a matter of vital
public concern both in regard to preventing
insurer insolvencies and in regard to handling
them when they do occur. . . . The injury to

35a
policyholders, third party claimants, general
creditors, shareholders and the general public
is very serious even in the smallest of cases.
Rubinstein, Legal Standing, 10 Conn. Ins. L.J. at 315.
As stated by one observer, “State regulation of
insurers is a ‘cradle-to-grave process,’ commencing
with the licensing of an insurer and, in cases of
business failure, terminating with receivership
proceedings in state court and, in certain instances,
dissolution.” Philip A. O’Connell et al., Insurance
Insolvency: A Guide for the Perplexed, 27 No. 14 Ins.
Litig. Rep. 669 (2005).
Notably as in the allegations in this case,
[i]nsurer insolvencies most frequently result
from acts or omissions that either overstate its
assets, understate its liabilities, or both. . . .
Whether inept or intentional, the fault is often
that of corporate management, but sometimes
a substantial share of the fault is upon third
parties who have acted in concert with
management.
Rubinstein, Legal Standing, 10 Conn. Ins. L.J. at 315.
It is in precisely the kind of case before the court here
that the public interest in enforcement of tort law is
very high.
C. Protection of Public Interest in Iowa Code
Chapter 507C. Because of the intense public interest
in the proper handling of insurance insolvency, the
National Association of Insurance Commissioners
first proposed the Uniform Insurer’s Liquidation Act
and later, the Insurers Rehabilitation and Liquidation
Model Act. Rubinstein, Legal Standing, 10 Conn. Ins.
L.J. at 317. Iowa has enacted a version of the Model
Act in Iowa Code chapter 507C.

36a
Under the Iowa version, only the insurance
commissioner, or a designee of the insurance
commissioner, can be appointed as liquidator. As
liquidator, the insurance commissioner is acting in his
official capacity as an officer of the state. Courts have
emphasized that the insurance commissioner in the
insolvency context acts for the benefit of the general
public, as well as policyholders and creditors. See, e.g.,
20th Century Ins. v. Garamendi, 878 P.2d 566, 580
(Cal. 1994) (en banc); Mitchell v. Taylor, 43 P.2d 803,
804 (Cal. 1935); Rubinstein, Legal Standing, 10 Conn.
Ins. L.J. at 318. If the legislature did not see
liquidation of an insurance company as infused with
the public interest, it could have allowed the
appointment of a private individual to wind down the
affairs of the insurance company. But the legislature
made a deliberate choice not to do that.
Iowa Code chapter 507C vests the insurance
commissioner with sweeping powers in liquidation
proceedings. Under Iowa Code section 507C.42(2),
after costs and administration of expenses, claims of
policy holders are given top priority in a liquidation.
This special priority rule reflects the importance of
protecting rights of the public over other claimants,
particularly corporate insiders. Iowa Code section
507C.21(1)(k) authorizes the insurance commissioner
to affirm or disavow contracts, a very powerful
provision not available to a private party. The power
to disavow contracts is a tool to allow the insurance
commissioner to advance the public interests by the
rejection of ill-advised contracts into which the
insurer may have entered. Finally, Iowa Code section
507C.21(1)(m) authorizes the insurance commissioner
to bring litigation “on behalf of creditors, members,
policyholders, or shareholders” against any persons.

37a
These strong provisions demonstrate that the
insurance commissioner as liquidator works for the
general public and not simply as a successor to the
insolvent insurer. Certainly the legislature thinks so.
For instance, Iowa Code section 507C.1(4) declares
that the purpose of the liquidation chapter “is the
protection of the interests of insured, claimants,
creditors, and the public.” The purposes are to be
achieved, among other things, through “[e]quitable
apportionment of any unavoidable loss.” Iowa Code
§ 507C.1(4)(d).
Of
course,
the
insurance
commissioner is seeking to equitably apportion the
loss through prosecution of its action against
Milliman. Further, the legislature had declared in
Iowa Code section 507C.1(4)(g) that the purpose of the
chapter is accomplished, in part, by
[p]roviding for a comprehensive scheme for the
rehabilitation and liquidation of insurance
companies and those subject to this chapter as
part of the regulation of the business of
insurance, the insurance industry, and insurers
in this state. Proceedings in cases of insurer
insolvency and delinquency are deemed an
integral aspect of the business of insurance and
are of vital public interest and concern.
Id. (emphasis added). The proposition that the
insurance commissioner acting as liquidator acts as a
public officer, and not merely as a private
representative, was well recognized in the California
case of Arthur Andersen LLP v. Superior Court, 79
Cal. Rptr. 2d 879 (Ct. App. 1998). In Arthur Andersen,
an insurance commissioner acting as liquidator sued
the accounting firm of Arthur Andersen for
negligence. Id. at 881. There, the court rejected the
notion that the insurance commissioner was a mere

38a
receiver of the insolvent insurer, emplacing that the
insurance commissioner acting as a regulator “is not
acting to protect the investment of the insurance
company’s owners, but instead to protect the policybuying public.” Id. at 882.
The Ohio Supreme Court took an approach similar
to Arthur Andersen in Taylor v. Ernst & Young,
L.L.P., 958 N.E.2d 1203 (Ohio 2011). The Taylor court
rejected the narrow argument that the insurer’s
liquidator simply stood in the shoes of the insurer,
noting that the liquidator sought to protect “the rights
of insureds, policyholders, creditors, and the pubic
generally.” Id. at 1213 (quoting Fabe v. Prompt Fin.,
Inc., 631 N.E.2d 614, 620 (Ohio 1994)).
As in Andersen and Taylor, the Iowa insurance
commissioner does not simply stand in the shoes of the
insurer, but has been charged by the legislature to
protect broader public interests.
D. Impact of Public Interest of Insurance
Commissioner on Enforceability of Arbitration
Clause.
1. Introduction. The fighting issue in this case is
whether a privately agreed upon arbitration clause
between the founder and Milliman is binding on the
insurance commissioner as liquidator. It is clear, of
course, that the insurance commissioner is not a
signatory to the arbitration agreement.
A
nonsignatory may be bound by an arbitration
agreement, but only if traditional principles of state
law allow the contract to be so enforced. Arthur
Andersen LLP v. Carlisle, 556 U.S. 624, 631, 129 S. Ct.
1896, 1902 (2009). If the insurance commissioner was
a mere representative of the insurer, however, he

39a
might be seen as simply “stepping into the shoes” of
the insurer.
2. More than in the shoes of the insolvent insurer.
But as seen above, the insurance commissioner is not
merely “stepping into the shoes” as a mere receiver.
The insurance commissioner is also acting as a
regulator. As was noted decades ago, the liquidator
not only represents the insolvent insurance
company, but he also represents its
policyholders, the beneficiaries under the
policies, the creditors, and is the representative
of the public interest in the enforcement of the
insurance laws as applicable to the policies of
an insolvent insurance company.
English Freight Co. v. Knox, 180 S.W.2d 633, 640 (Tex.
Civ. App. 1944).
More recently, in Arthur Andersen the court
observed,
Nor can AA’s argument that the Insurance
Commissioner acts only as an ordinary receiver
exonerate AA from liability for negligent
misrepresentations in an audit report. When
carrying out his statutory regulatory duty of
monitoring the claims-paying ability of an
insurer, the Insurance Commissioner is not
acting to protect the investment of the insurance
company’s owners, but instead to protect the
policy-buying
public.
The
Insurance
Commissioner hence represents far broader
interests than those typically represented by an
ordinary receiver, whose potential claims are
limited to those of the company in receivership.
Arthur Andersen, 79 Cal. Rptr. 2d at 882 (emphasis
added).

40a
A similar observation was made in an Ohio court,
which found that
[t]o permit the officers and directors of a
regulated industry to attempt to defeat the
liquidation statutes by privately contracting to
resolve
allegations
of
corporate
mismanagement in a private forum of their own
choosing is contrary to the purposes of the
liquidation act and prejudicial to the rights of
policyholders and creditors who have been
harmed by the insolvency of the corporations.
Covington v. Lucia, 784 N.E.2d 186, 191-92 (Ohio Ct.
App. 2003).
The Ohio Supreme Court came to the same
conclusion in Taylor, 958 N.E.2d 1203.
After
determining that the liquidator of an insurance
company did not merely stand in the shoes of the
insurer, the Taylor court declared that the case
presented “a garden-variety attempt to enforce an
arbitration clause against a nonsignatory.” Id. at
1213. Andersen, Covington, and Taylor stand for the
proposition that an arbitration provision agreed upon
by an insurer is not binding on the insurance
commissioner acting as liquidator under insurance
liquidation statutes in light of his distinctive public
responsibilities as the liquidator.
3. No presumption of arbitrability. Milliman
suggests that under the FAA, there is a strong
presumption that matters that relate to the
underlying contract are subject to arbitration. That is
true enough. AT&T Techs., Inc. v. Commc’ns Workers
of Am., 475 U.S. 643, 650, 106 S. Ct. 1415, 1419 (1986).
But this presumption does not arise until it has been
shown that there is an underlying agreement to

41a
arbitrate. Griswold v. Coventry First LLC, 762 F.3d
264, 271 (3d Cir. 2014). In determining whether there
is, in fact, an underlying agreement to arbitrate, the
presumption is against arbitration. Taylor, 958
N.E.2d at 1213.
Further support for this proposition that an
arbitration clause may not be enforced against a
nonsignatory liquidator with public responsibilities
may be found in EEOC v. Waffle House, Inc., 534 U.S.
279, 122 S. Ct. 754 (2002).
In this disability
discrimination case, the EEOC brought an action
seeking victim-specific relief. Id. at 283-84, 122 S. Ct.
at 758-59. The victim, however, had signed a contract
agreeing to arbitrate employment claims. Id. at 282,
122 S. Ct. at 758. The question in Waffle House was
whether the EEOC was subject to the arbitration
provision signed by the victim. Id.
The Supreme Court held that the EEOC was not
subject to the arbitration provision between the victim
and the employer. Id. at 289, 122 S. Ct. at 762. The
Waffle House Court emphasized that the EEOC was
empowered by statute to bring claims that sought
victim-specific relief and that the EEOC was master
of any such claim. Id. at 289-91, 122 S. Ct. at 762-63.
In bringing such claims, the Waffle House Court noted
that “the agency may be seeking to vindicate a public
interest . . . even when it pursues entirely victimspecific relief.” Id. at 296, 122 S. Ct. at 765. Where
the public agency has authority to bring a claim and
does so in the public interest, even when the relief
sought is specific to a victim who signed an arbitration
agreement, the public interest prevails and the
arbitration agreement is not enforceable.

42a
We adopted the Waffle House approach in Rent-ACenter, Inc. v. Iowa Civil Rights Commission, 843
N.W.2d 727, 732-33, 735-36 (Iowa 2014). In Rent-ACenter, we declared that “[t]he essential point of
Waffle House is that the FAA’s reach does not extend
to a public agency that is neither a party to an
arbitration agreement nor a stand-in for a party.” Id.
at 736.
III. In
Any
Event,
the
Insurance
Commissioner
Validly
Exercised
His
Unqualified Legislative Power to Disavow in
Total the Insider Contract Between the
Founders and Milliman.
A.
Legislative
Vesting
in
Insurance
Commissioner of Unqualified Power to Disavow
Contracts.
The Iowa version of the Insurers’
Rehabilitation and Liquidation Model Act vests the
insurance commissioner as liquidator with very broad
powers. One of the broad powers vested in the
commissioner is Iowa Code section 507C.21(l)(k) that
provides that the insurance commissioner as
liquidator may “affirm or disavow contracts to which
the insured is a party.” In this case, the insurance
commissioner has disavowed the contract between the
Founders and Milliman that, among other things,
limited any liability Milliman might have to three
times its fee for services.
The legislature’s vesting in the insurance
commissioner the power to disavow contracts is
unqualified. Further, Iowa Code section 507C.1
provides that the act “shall be liberally construed to
effect the purpose” which is “the protection of interests
of the insureds, claimants, creditors, and the public.”
Combining these provisions means that if there is an

43a
insider contract that stands in the way of vindicating
the interests of the insureds, claimants, creditors, and
the public, the insurance commissioner may disavow
the contract.
The insurance commissioner has reasonably
concluded that the disavowal of the contract between
the insurer and Milliman is in the public interest. The
contract between the founders and Milliman was an
inside deal that dramatically limited Milliman’s
liability for consequential damages. The insurance
commissioner reasonably decided that disavowal of
the contract, thereby eliminating application of any
cap on damages, and pursuit of residual common law
claims was in the best interest of the public.
B. No Limitation to Executory Contracts.
Milliman suggests that the power to disavow
contracts is limited to executory contracts. Other
state courts construing a similar disavowal power
have not limited them to executory contracts. For
instance, in Covington, the insurance commissioner
alleged that corporate insiders engaged in various
torts, including breach of fiduciary duty, negligence,
fraudulent transfers, and corporate mismanagement.
784 N.E.2d at 187. But the potential defendants had
severance agreements which limited their liability.
Id. The insurance commissioner disavowed the
severance contracts, while the insiders argued that
they were entitled to have the dispute resolved in
arbitration as required by the severance agreement.
Id.
The Covington court held that the insurance
commissioner had the power to disavow the severance
agreements. Id. at 192. The Covington court noted
that, as here, the insurance commissioner was not

44a
seeking to enforce any rights under the contract, but
was pressing contract claims. Id. Further, the
Covington court observed,
To permit [the officer] to have his action
decided privately . . . when the liquidator has
disavowed the contract is contrary to the
interests of insureds, claimants, creditors, and
the public generally as well as the interest of
the liquidator who in the pursuit of his duties
represents them.
Id. at 191. The Covington court further emphasized,
To permit the officers and directors of a
regulated industry to attempt to defeat the
liquidation statutes by privately contracting to
resolve
allegations
of
corporate
mismanagement in a private forum of their own
choosing is contrary to the purposes of the
liquidation act and prejudicial to the rights of
policyholders and creditors who have been
harmed by the insolvency of the corporations.
Id. at 191-92.
A few months after Covington, the same Ohio court
decided Benjamin v. Pipoly, 800 N.E.2d 50 (Ohio Ct.
App. 2003). The Benjamin court emphasized that the
disavowal provision in Ohio law needed to be liberally
interpreted to advance the purpose of the statute. Id.
at 57. The Benjamin court noted that “[t]he liquidator
must have freedom of action to do those acts most
beneficial in achieving her objectives,” and is not
“automatically bound by . . . pre-appointment
contractual obligations.” Id. at 58-59.
The Nebraska Supreme Court considered the
question in State ex rel. Wagner v. Kay, 722 N.W.2d
348 (Neb. Ct. App. 2006). Like Covington and

45a
Benjamin, Wagner held that the insurance
commissioner as liquidator could disavow severance
agreements of former officers and directors. Id. at
357-58.
Aside from the well-reasoned caselaw, it is clear
that the Iowa legislature must have been aware of the
difference between the term “contract” and “executory
contract.” On four occasions, the legislature has used
the term “executory contract” when it wanted to
qualify a legislatively granted power. See, e.g., Iowa
Code § 428A.2 (making an exception to property taxes
for “[a]ny executory contract for the sale of land”); id.
§ 524.103 (defining “agreement for the payment of
money” to include “accounts receivable and executory
contracts”); id. § 554.13208 (determining rules for
waiver “affecting an executory portion of a lease
contract); id. § 554.13505 (allowing cancellation of
lease obligations that “are still executory on both
sides”). The legislature, however, did not use the term
“executory” when it enacted Iowa Code section
507C.21(l)(k).
Further, the legislature may be
presumed to have been aware of the longstanding
provision of the Federal Bankruptcy Code that
expressly limits a trustee’s power to “executory”
contracts. 11 U.S.C. § 744. There is simply no such
provision in Iowa law. Our charge is to apply the law
as we find it.
Milliman cites Maxwell v. Missouri Valley Ice &
Cold Storage Co., 181 Iowa 108, 164 N.W. 329 (1917),
and State v. Associated Packing Co., 195 Iowa 1318,
192 N.W. 267 (1923), as supporting the position that
the insurance commissioner’s power to disavow
contracts extends only to executory contracts. These
older cases predate the Act, have nothing to do with
insurance, and do not involve the insurance

46a
commissioner exercising unqualified powers of
disavowal in the public interest pursuant to statutory
authority. Rather, these are simply older cases
involving ordinary receivers in less regulated
businesses. As a result, nothing in these pre-Act,
noninsurance cases suggest that the Iowa insurance
commissioner’s later, unqualified, legislatively
established power to disavow contracts should be
limited to executory contracts. Indeed, the language
of these cases prior to the enactment of the Act
indicate that the legislature knew exactly what it was
doing when it declined to limit the disavowal
authority in Iowa Code section 507C.21(1)(k).
Milliman also cites anti-cherry-picking cases
where courts have prohibited insurance liquidators
from attempting to disavow certain provisions of
contracts while enforcing other provisions.
For
example, in Bennett v. Liberty National Fire Insurance
Co., 968 F.2d 969 (9th Cir. 1992), the United States
Court of Appeals for the Ninth Circuit held that
because the liquidator was attempting to enforce
contractual rights of the insurer, she was bound by the
preinsolvency agreements. Id. at 972. Similarly, in
Costle v. Fremont Indemnity Co., 839 F. Supp. 265 (D.
Vt. 1993), the district court refused to allow a
liquidator to enforce an insolvent insurance
company’s rights under an agreement and at the same
time escape the arbitration provision of that
agreement. Id. at 272.
Here, however, the insurance commissioner is not
cherry-picking the contract between Milliman and the
founders. It has disavowed the entire agreement. All
claims brought by the insurance commissioner in this
proceeding sound in tort, not contract. As a result,

47a
cases like Bennett and Costle are not applicable under
the facts presented here.
C. Power to Disavow Not Preempted by
Federal Arbitration Act.
1. Generally applicable state law not preempted by
FAA.5 Milliman further asserts that the power of the
insurance commissioner to disavow contracts is
preempted in light of the extraordinarily muscular
interpretation of the FAA in recent cases of the United
But state law that is
States Supreme Court.6
generally applicable and does not discriminate
against arbitration provisions does not offend the
FAA. See Doctor’s Assocs., Inc. v. Casarotto, 517 U.S.
681, 686–87, 116 S. Ct. 1652, 1656 (1996).
The disavowal provisions of Iowa Code section
507C.21(1)(k) do not discriminate against arbitration
provisions. Iowa Code section 507C.21(1)(k) applies to
all
contracts,
empowering
the
insurance
commissioner to disavow contracts that it believes
impair the public interest in a state liquidation
proceeding. There is simply nothing in Iowa Code
The district court did not rule upon the question of whether
the exercise of disavowal authority by the insurance
commissioner under Iowa Code section 507C.21(1)(k)
discriminates against arbitration clauses and is thus invalid
under the FAA. The Milliman defendants did not file an Iowa
Rule of Civil Procedure 1.904(2) motion. As a result, the issue
has been waived. Nonetheless, in the alternative, I briefly
address the merits of the issue here.
5

See, e.g., Margaret L. Moses, Statutory Misconstruction: How
the Supreme Court Created a Federal Arbitration Act Never
Enacted by Congress, 34 Fla. St. U. L. Rev. 99, 127-31 (2006);
Davis S. Schwartz, Correcting Federalism Mistakes in Statutory
Interpretation: The Supreme Court and the Federal Arbitration A
Act, 67 Law & Contemp. Probs. 5, 23-26 (2004).
6

48a
section 507C.21(1)(k) that “single[s] out arbitration
provisions for suspect status.” Id. at 687, 116 S. Ct. at
1656. As a result, the general disavowal provision is
within the scope of the savings clause of the FAA
which does not preempt state law that prevents
arbitration “upon such grounds as exist at law or in
equity for the revocation of any contract.” 9 U.S.C. § 2.
2. Reverse preemption under McCarran-Ferguson
Act. In any event, even if there is a conflict between
the broad and liberally construed powers of the
insurance commissioner to disavow contracts and the
FAA in this case, preemption of federal, and not state
law, results. That is because of reverse preemption
under the McCarran-Ferguson Act. A brief review of
background history will illuminate the nature of
reverse preemption under McCarran-Ferguson.
Historically, the regulation of insurance has been
a matter of state concern. In Paul v. Virginia, 75 U.S.
168, 185 (1868), the United States Supreme Court
held that Congress lacked the power under the
Commerce Clause to regulate insurance, thus leaving
the field to state regulators. In United States v. SouthEastern Underwriters Association, 322 U.S. 533, 64 S.
Ct. 1162, 1164, 1178 (1944), the Supreme Court
reversed its position and held that a contract of
insurance between an insurer and a policyholder in
different states constitutes interstate commerce and
was thus subject to federal antitrust laws. See Willy
E. Rice, Federal Courts and the Regulation of the
Insurance Industry, 43 Cath. U. L. Rev. 399, 401
(1994).
After South-Eastern Underwriters, the Congress
quickly endorsed the historical role of state regulators
by enacting the McCarran-Ferguson Act. Under

49a
McCarran-Ferguson, “[n]o Act of Congress shall be
construed to invalidate, impair, or supersede any law
enacted by any State for the purpose of regulating
insurance . . . unless such [Federal] Act specifically
relates to the business of insurance.” 15 U.S.C.
§ 1012(b).
In Humana Inc. v. Forsyth, 525 U.S. 299, 307, 119
S. Ct. 710, 716 (1999), the United States Supreme
Court established a three-part test to determine when
reverse preemption of federal law occurs under
McCarran-Ferguson. Reverse preemption occurs if (1)
the state statute was enacted for the purpose of
regulating the business of insurance; (2) the federal
statute involved does not specifically relate to the
business of insurance; and (3) the application of the
federal statute would “invalidate, impair, or
supersede” the state statute regulating insurance. Id.
In analyzing the first prong, Congress did not
provide any guidance on the meaning of the phrase
“regulating the business of insurance.” In United
States Department of Treasury v. Fabe, 508 U.S. 491,
508, 113 S. Ct. 2202, 2211–12 (1993), however, the
United States Supreme Court declared that the
provisions of McCarran-Ferguson protecting state
regulation of insurance were not to be narrowly
construed.
The Iowa legislature certainly believes that the
first prong of the Forsyth test has been satisfied.
Through adoption of the applicability provisions in
Iowa Code section 507C.1(4)(f)-(g), the legislature has
declared that the provisions of Iowa Code chapter
507C were enacted “for the purpose of regulating the
business of insurance,” as quoted in 15 U.S.C.
§ 1012(b).

50a
Such express declarations of the Iowa legislature
do not bind this court. We have the power, in
interpreting statutes, to tell the legislature that the
unambiguous declaration that the liquidation statute
is “for the purpose of regulating the business of
insurance” is wrong and must be ignored in this case.
But the better reasoned judicial authority agrees
with the legislature’s declaration that the provisions
of Iowa Code chapter 507C regulate the business of
insurance. For instance, in Fabe v. United States
Department of Treasury, 939 F.2d 341 (6th Cir. 1991),
aff’d in part, rev’d in part, 508 U.S. 491, the Sixth
Circuit held that Ohio’s liquidation statute amounted
to “a regulation of the ‘business of insurance’ within
the meaning of the McCarran-Ferguson Act and thus
subject solely to the provisions of state law absent
explicitly conflicting legislation.” Id. at 343.
Strikingly, the majority cites Quackenbush v.
Allstate Insurance Co., 121 F.3d 1372 (9th Cir. 1997),
for the proposition that this case should be sent to
arbitration. In actuality, Quackenbush unequivocally
supports my position. Quackenbush declares that
[u]nder Fabe, there is no question that
California’s
insurer-insolvency
provisions
regulate the “business of insurance” and are
saved from preemption by the McCarran–
Ferguson Act. Thus, Allstate could not invoke
the FAA to compel arbitration of its claims
against Mission, which must be pursued
through California’s statutory insolvency
scheme.
Id. at 1381.
Exactly on point! As it turns out, however, the
claim in Quackenbush was not brought under the

51a
state’s statutory insurance insolvency scheme, but
was brought outside the statutory context. Id. at 1381.
As a result, the McCarran–Ferguson Act did not
apply. Id. at 1381-82. Here, however, it is undisputed
that the insurance commissioner’s claim is brought
under the Iowa statutory insurance insolvency
scheme.
Other cases follow Quackenbush. Following the
Sixth and Ninth Circuits, the Tenth Circuit held in
Davister Corp. v. United Republic Life Insurance, 152
F.3d 1277, 1281 (10th Cir. 1998), that the FAA was
reverse preempted by a state liquidation regime
designed to protect the interests of policyholders.
Similarly, in Washburn v. Corcoran, 643 F. Supp. 554,
557 (S.D.N.Y. 1986), the federal district court held
that law related to liquidation of insurance companies
was a state law regulating insurance and that the
FAA had to yield to its provisions.
The second prong of the Forsyth test has been met
in this case. The FAA is not a statute specifically
related to the business of insurance.
That leaves the third prong of the Forsyth test.7
Sending the case against the Milliman defendants to
a private arbitration in New York plainly interferes
with Iowa Code chapter 507C. Iowa Code section
507C.1(4)(g) declares that one of the purposes of
chapter 507C is to “enhance[] efficiency and economy
of liquidation” and to provide “a comprehensive
scheme” for the liquidation of insurance companies.
Iowa Code § 507C.1(4)(c), (g). If Milliman succeeds
While the district court addressed the first prong of the
Forsyth test, it did not address the second and third prongs.
Again, as the Milliman defendants did not file a motion to expand
the findings of the district court, the issue has been waived.
7

52a
divesting the Polk County district court of jurisdiction
of the insurance commissioner’s claims against
Milliman, the interconnected causes of action in the
litigation will be split into two forums. Claims against
Milliman will be decided in New York, but claims
involving the founders, including the claim that they
aided and abetted and conspired with Milliman, will
remain in Polk County district court. Such slicing and
dicing of the litigation would neither be efficient nor
comprehensive, as such piecemeal litigation and the
possibility of inconsistent verdicts plainly impairs the
ability of the insurance commissioner to fulfill the
statutory purposes of Iowa Code chapter 507C. See
Iowa Code § 507C.1(4)(c) (stating the purpose of the
statute is to protect “the interests of insureds,
claimants, creditors, and the public” through
“[e]nhanced efficiency and economy of liquidation”);
id. § 507C.1(4)(g) (stating the purpose of the statute is
promoted through a comprehensive scheme of
liquidation); see also Ernst & Young, LLP v. Clark, 323
S.W.3d 682, 691 (Ky. 2010).
Further, sending the fundamental public policy
issues involved in the litigation to a confidential
arbitration proceeding in New York where New York
law is to be applied obviously impairs the ability of the
insurance commissioner to enforce Iowa law. The
question of whether the insurance commissioner may
disavow the consulting services agreement, thereby
avoiding the draconian limitation of consequential
damages and the exclusion of punitive damages,
should not be decided by private arbitrators with
limited rights of appeal. See Benjamin, 800 N.E.2d at
61; Covington, 784 N.E.2d at 191. Further, the broad
power of the insurance commissioner to subpoena
witnesses and compel production of documents under

53a
Iowa Code section 507C.21(1)(e) would now be subject
to the discretion of a panel of arbitrators.
Finally, proceedings pursuant to liquidation of an
insurance company are “of vital public interest and
concern.” Iowa Code § 507C.1(4)(g). To have the
proceedings in this case conducted confidentially in
New York is plainly inconsistent with the public’s
interest in the regulation of insurance and the
purposes of Iowa Code chapter 507C.
The practical consequences of the approach of the
majority is stunning. The dispute between the
insurance commissioner and Milliman will be sent to
a panel of arbitrators in New York. The disavowed
contract calls for the dispute to be governed not by the
laws of Iowa, but the laws of New York. It may not
matter, however, as the private arbitrators will not be
bound to apply the law. See Prima Paint Corp. v.
Flood & Conklin Mfg. Co., 388 U.S. 395, 407, 87 S. Ct.
1801, 1808 (1967) (Black, J., dissenting) (noting
arbitrators are not bound to apply the law). Further,
the parties will not be entitled to wide discovery as
ordinarily afforded by the Iowa rules of civil
procedure, but will instead engage is such discovery
as allowed by the grace of the private arbitrators in
the exercise of unreviewable discretion. See Margaret
M. Harding, The Clash Between Federal and State
Arbitration Law and the Appropriateness of
Arbitration as a Dispute Resolution Process, 77 Neb.
L. Rev. 397, 489 (1998) (observing that discovery in
arbitration is limited). The process will also be
confidential, contrary to the public interest. See
Benjamin, 800 N.E.2d at 61; Covington, 784 N.E.2d at
191. The ultimate decision of the private arbitrators,
based on whatever law the arbitrator chooses and
after whatever discovery is tolerated, will be subject

54a
to judicial review only on the narrowest of grounds.
See 9 U.S.C. § 10.
In the arbitration, there will be a question of
whether the damages limitation provision of the
insider contract may be enforced in light of the effort
of the insurance commissioner to disavow the
contract. That protean issue, heavy with public policy
implications and dramatically affecting the remedy
that might be available, will, apparently be decided by
private arbitrators in New York, not the Iowa courts.
The arbitrators may well decide that the provision of
the agreement prohibiting punitive damages in most
instances may well be enforceable. And factual issues
related to the liquidators theory of liability and proven
damages will not be not be decided by an Iowa jury,
but by three arbitrators not subject to voir dire and
who do not receive instructions on the law.
All this is flatly contrary to the traditional historic
commitment of the State of Iowa to regulating the
insolvency of insurance companies and the statutory
acquiesce of Congress in the broad exercise of that
authority unfettered by federal meddling through
bankruptcy proceedings or the FAA. It represents the
privatization of public law at its starbursting zenith
or, more accurately perhaps, at its unilluminated
nadir. And it demonstrates how the FAA has been
ripped from its very modest historical moorings8 and
recruited as a grotesque gargoyle-like accomplice in
the privatization of public law.

For a detailed explanation of how the FAA has been
transformed from a modest rule into a protean nemesis of public
law, see my dissent in Karon. See Karon v. Elliott Aviation, 937
N.W.2d 334, 348 (Iowa 2020) (Appel, J., dissenting).
8

55a
Further, the access to justice issues are obvious.
The insurance commissioner, a public official charged
with representing the public interest, seeks to chase
after potential wrongdoers who have allegedly,
through their torts, caused untold damage on
members of the Iowa public. The catastrophic failure
of the health insurance entity left countless Iowans to
scramble. The interests of Iowa healthcare providers
who relied upon CoOportunity for timely payment
were no doubt threatened. The case demands a
thorough airing and public accountability.
Yet,
according to the majority, the dispute will be handled
confidentially in some office in New York applying
New York law pursuant to the cramped remedies
provided by the private insider contract.
Of course, at this stage, the pleadings of the
insurance commissioner are only allegations. But the
insurance commissioner, on behalf of the public, is
lawfully entitled to attempt to make the case against
the Milliman defendants in a public courtroom in Iowa
where Iowa law applies; where Iowa courts make the
necessary legal determinations; and where any
factual disputes, including the amount of damages, if
any, will be resolved by a fair and impartial Iowa jury.
The liquidation of this insolvent entity by the
insurance commissioner is a regulatory action, not a
private garage sale.
IV.
Conclusion.
The insurance commissioner acting as liquidator
does not simply stand in the shoes of the insured in
this case but is a state official representing the
interests of policyholders, creditors, and the public.
As a result, the insurance commissioner as a
nonsignatory is not subject to an arbitration provision

56a
in an insider contract between the founders and
Milliman. Further, the insurance commissioner has
lawfully disavowed the contract pursuant to the Iowa
legislature’s unqualified grant of authority, Iowa Code
section 507C.21(1)(k). Nothing in the FAA precludes
the insurance commissioner from exercising his
discretion to disavow an insider contract that contains
an arbitration provision when he determines under a
general disavowal statute that to do so is in the public
interest. In any event, the McCarran-Ferguson Act
prevents the application of federal law to state
regulation of the business of insurance. As a result,
the ruling of the district court refusing to dismiss the
insurance commissioner’s action should be affirmed.

57a
APPENDIX B
IN THE IOWA DISTRICT COURT FOR POLK
COUNTY
DOUG OMMEN, et al.,

Case No. LACL 138070

Plaintiffs,
vs.
MILLIMAN, INC., et al.,
Defendants.

ORDER DENYING
MILLIMAN, INC., ET
AL.’S MOTION TO
DISMISS AND
COMPEL
ARBITRATION

Under authority provided by the Insurers
Supervision, Rehabilitation, and Liquidation Act,
Iowa Code chapter 507C (2017) (the Act)1, Plaintiffs
Doug Ommen, et al. (the Liquidators) filed a Petition
on June 5, 2017, against Defendants Milliman, Inc., et
al. (Milliman) alleging claims arising from the fall of
failed insurance company CoOportunity Health, Inc.
(CoOportunity). Before the court is Milliman’s Motion
to Dismiss and Compel Arbitration (the Motion),
resisted by the Liquidators.
Hearing on the Motion and Resistance was held on
Friday, December 8, 2017. Representing Milliman
All references are to the 2017 Iowa Code unless
otherwise indicated.
1

58a
was attorney Steven Eckley.
Representing the
Liquidators was attorney Kirsten Byrd.
The court, having considered Milliman’s Motion to
Dismiss and Compel Arbitration, the Liquidators’
Resistance, Milliman’s Reply, the Liquidators’
Supplemental Brief and Milliman’s Supplemental
Authority, and having heard oral argument by the
parties on December 8, 2017, denies Milliman’s
Motion to Dismiss and Compel Arbitration for the
following reasons:
OVERVIEW OF THE LIQUIDATORS’ CLAIMS
Plaintiffs are the statutory liquidators of
CoOportunity. Plaintiffs brought this lawsuit as part
of their statutory mandate to preserve and collect the
assets of the company and to protect the interests of
policyholders, creditors, and the public.
The
Liquidators’ First Amended Petition asserts claims
against Milliman for (1) malpractice, (2) breach of
fiduciary duty, (3) negligent misrepresentation, (4)
intentional misrepresentation, (5) aiding and abetting
breach of fiduciary duty, and (6) conspiracy. The First
Amended Petition also asserts related tort and other
claims
against
the
company’s
founders/directors/officers.
The Liquidators’ claims against Milliman focus on
Milliman’s alleged malpractice and statements to
CoOportunity and regulators regarding the viability
of the company.
The Liquidators allege these
statements were inaccurate, incomplete, and
misleading. As permitted by Iowa Code section
507C.21, the Liquidators assert their claims on behalf
of the company, policyholders, creditors, and other
impacted parties because the Liquidators allege they
were damaged by the insolvency. The Liquidators

59a
confirm any recovery in the action will inure to the
general benefit of all policyholders and creditors. See
Iowa Code §§ 507C.21(1)(m) and 507C.18.
MILLIMAN’S MOTION TO DISMISS AND
COMPEL ARBITRATION
Milliman2 asks the court to compel the Liquidators
to pursue their claims against Milliman in a
confidential arbitration proceeding, based upon a
Consulting Services Agreement (the Agreement)
signed by a CoOportunity founder in 2011 before the
company was formed.
The Agreement purports to require a confidential
arbitration and application of New York law. It
attempts to limit any malpractice recovery to three
times fees paid, and to insulate Milliman from
punitive damages, lost profits, and consequential
damages. The Liquidators allege Milliman offered the
founders a personal incentive to enter into the
Agreement by agreeing Milliman would not seek to
collect against the founders personally if the federal
government did not approve the funding application
for CoOportunity.
The Liquidators allege the
Agreement is evidence of a tainted relationship, lack
of independence, conflict of interest, and motive.
ANALYSIS
It is undisputed that the Liquidators are not
signatories to the Agreement. It is fundamental that
“arbitration is a matter of contract and a party cannot
be required to submit to arbitration any dispute which
he has not agreed so to submit.” AT & T Techs., Inc.
v. Commc’ns Workers of Am., 475 U.S. 643, 646 (1986)
“Milliman” refers to Defendants Milliman, Inc., Kimberley
Hiemenz, and Michael Sturm.
2

60a
(citation omitted); Wells Enters., Inc. v. Olympic Ice
Cream, 903 F. Supp. 2d 740, 746 (N.D. Iowa 2012)
(“[A] party who has not agreed to arbitrate a dispute
cannot be forced to do so.”). The enforceability of an
agreement to arbitrate “flows from the consent of the
parties to the agreement.” Rent-A-Center, Inc. v. Iowa
Civil Rights Comm’n, 843 N.W.2d 727, 732-33 (Iowa
2014) (citation omitted); see also EEOC v. Waffle
House, Inc., 534 U.S. 279, 294 (2002) (“Arbitration
under the [Federal Arbitration Act] is a matter of
consent, not coercion. . . . It goes without saying that
a contract cannot bind a nonparty.”); First Options of
Chi., Inc. v. Kaplan, 514 U.S. 938, 943 (1995)
(“[A]rbitration is simply a matter of contract between
the parties; it is a way to resolve those disputes—but
only those disputes—that the parties have agreed to
submit to arbitration.”).
State law governs the question of whether there is
a binding agreement to arbitrate. Lyster v. Ryan’s
Family Steak Houses, Inc., 239 F.3d 943, 946 (8th Cir.
2001) (citations omitted).
There may be a
presumption in favor of arbitration in certain
circumstances. This presumption does not apply
where, as in this case, a non-party to the agreement
disputes the agreement is binding and enforceable
against the non-party. See e.g., Jacks v. CMH Homes,
Inc., 856 F.3d 1301, 1304-05 (10th Cir. 2017); White v.
Sunoco, Inc., No. 16-2808, 2017 WL 38641616, at *3
(3d Cir. Sept. 5, 2017); Griswold v. Coventry First
LLC, 762 F.3d 264, 271 (3d Cir. 2014); Taylor v. Ernst
& Young, LLP, 958 N.E.2d 1203, 1210 (Ohio 2011). A
non-signatory may be bound by an arbitration
agreement only if traditional principles of state law
allow the contract to be enforced against the nonparty.

61a
Arthur Andersen LLP v. Carlisle, 556 U.S. 624, 631
(2009).
Milliman claims that the Liquidators are bound as
successors. Under Iowa law the Liquidators are not
mere successors of CoOportunity. As a matter of law
they do not stand only in CoOportunity’s shoes.
Rather, the Liquidators brought this action pursuant
to the Iowa Legislature’s broad grant of statutory
authority to the Liquidators under Iowa Code section
507C.21(1)(m) to bring claims on behalf of
policyholders and creditors, as well as on behalf of
CoOportunity.3 Other courts confronting this issue
have held that the liquidator is not a mere successor
and is not bound by the defunct insurer’s arbitration
agreement. See e.g., Taylor, 958 N.E.2d at 1211.
The Liquidators do not seek to enforce or recover
under the Agreement. Their claims do not arise from
or relate to the Agreement. Rather, the Liquidators’
claims arise from Milliman’s alleged malpractice and
public statements certifying the viability of
CoOportunity, as well as the Liquidators’ statutory
right under section 507C.21(1)(m) to assert claims on
behalf of the company, policyholders, creditors, and
others.
In addition, the Liquidators have disavowed the
Agreement in its entirety, as authorized under Iowa
Code section 507C.21(1)(k).4
The Liquidators’

Iowa Code section 507C.21(1)(m) permits the liquidator to
“[p]rosecute an action on behalf of the creditors, members,
policyholders, or shareholders of the insurer against an officer of
the insurer, or any other person.”
4 Iowa Code section 5o7C.21(1)(k) permits the liquidator to
“enter into contracts as necessary to carry out the order to
3

62a
disavowal is an independent alternative ground upon
which the court refuses to compel arbitration as
provided for in section 2 of the Federal Arbitration Act
(the FAA). The court rejects Milliman’s argument
that the Liquidators’ authority to disavow contracts
applies only to executory or ongoing contractual
obligations. This is not supported by the plain
language of the statute, cases construing an insurance
liquidator’s disavowal authority, and the express
purpose of the Act to effectuate the goals of
policyholder and creditor protection.
Further, the language of the Act confirms that the
Legislature enacted this comprehensive statute to
protect the interests of CoOportunity’s policyholders.
The Act requires the Liquidators’ claims be resolved
in a public forum of the Liquidators’ choosing, subject
to the rules and procedures established by the
Legislature. Forcing the Liquidators to arbitrate
would interfere with (1) the public’s interest in the
proceeding; (2) the Liquidators’ right of forum
selection under the Act; (3) the Act’s purposes of
economy and efficiency; (4) the protection of
CoOportunity policyholders and creditors; and (5) the
Liquidators’ authority to disavow the Agreement. It
is not lost upon this court that the Legislature could
have chosen to restrain the reach of a liquidator in
situations such as the instant matter and require the
result Milliman argues for here. It is telling to the
court that the Legislature has not done so. The court

liquidate and affirm or disavow contracts to which the insurer is
a party.”

63a
will not supply that which is within the authority of
the Legislature to provide.5
Finally, the Act expressly involves the “business of
insurance.”6 It falls within the meaning of that phrase
in accordance with the United States Supreme Court’s
opinion in United States Department of Treasury v.
Fabe, 508 U.S. 491, 500-09 (1993). The court cannot
compel arbitration under the FAA because, under the
McCarran-Ferguson Act, the Act reverse preempts the
FAA, such that the FAA must give way to the rights
and remedies prescribed in the Act. See 15 U.S.C.
§ 1012(b).
CONCLUSION
For all of the reasons stated above, the court finds
and concludes that the Liquidators have exercised
In this vein the court also observes that the liquidation
statutes in most other states do not approximate the depth and
breadth of the authority granted to the Liquidators by the
Legislature under the Act.
5

6 The plain language of Iowa Code section 507C.1(4)(g)
confirms this:
The purpose of this chapter is the protection of
the interests of insureds, claimants, creditors,
and the public ... through all of the following:
....
g. Providing for a comprehensive scheme for the
rehabilitation and liquidation of insurance
companies and those subject to this chapter as
part of the regulation of the business of
insurance, the insurance industry, and insurers
in this state. Proceedings in cases of insurer
insolvency and delinquency are deemed an
integral aspect of the business of insurance and
are of vital public interest and concern.

Iowa Code § 507C.1(4)(9).

64a
their statutory authority properly. They are not
bound by the arbitration clause discussed above,
which they have disavowed. Milliman’s Motion to
Dismiss and Compel Arbitration should therefore be
denied.
ORDER
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that Defendant Milliman, Inc., et
al.’s Motion to Dismiss and Compel Arbitration is
DENIED.
Costs are assessed to Defendant Milliman, Inc., et
al.

65a
APPENDIX C
1. 9 U.S.C. § 2 provides:
§ 2. Validity, irrevocability, and enforcement of
agreements to arbitrate
A written provision in any maritime transaction or
a contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or transaction,
or the refusal to perform the whole or any part thereof,
or an agreement in writing to submit to arbitration an
existing controversy arising out of such a contract,
transaction, or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.
2. 15 U.S.C. § 1012(b) provides:
§ 1012. Regulation by State law; Federal law
relating specifically to insurance; applicability
of certain Federal laws after June 30, 1948
(b) Federal regulation
No Act of Congress shall be construed to
invalidate, impair, or supersede any law enacted by
any State for the purpose of regulating the business of
insurance, or which imposes a fee or tax upon such
business, unless such Act specifically relates to the
business of insurance: Provided, That after June 30,
1948, the Act of July 2, 1890, as amended, known as
the Sherman Act, and the Act of October 15, 1914, as
amended, known as the Clayton Act, and the Act of

66a
September 26, 1914, known as the Federal Trade
Commission Act, as amended, shall be applicable to
the business of insurance to the extent that such
business is not regulated by State law.
3. Iowa Code Ann. § 507C.1 provides:
507C.1 Short title — construction — purpose
1. This chapter shall be cited as the “Insurers
Supervision, Rehabilitation, and Liquidation Act”.
2. This chapter shall not be interpreted to limit
the powers granted the commissioner by any other
law.
3. This chapter shall be liberally construed to
effect the purpose stated in subsection 4.
4. The purpose of this chapter is the protection of
the interests of insureds, claimants, creditors, and the
public, with minimum interference with the normal
prerogatives of the owners and managers of insurers,
through all of the following:
a. Early detection of a potentially dangerous
condition in an insurer and prompt application of
appropriate corrective measures.
b. Improved methods for rehabilitating insurers,
involving the cooperation and management expertise
of the insurance industry.
c. Enhanced
efficiency
and
economy
of
liquidation, through clarification of the law, to
minimize legal uncertainty and litigation.
d. Equitable apportionment of any unavoidable
loss.

67a
e. Lessening the problems of interstate
rehabilitation and liquidation by facilitating
cooperation between states in the liquidation process,
and by extending the scope of personal jurisdiction
over debtors of the insurer outside this state.
f. Regulation of the insurance business by the
impact of the law relating to delinquency procedures
and substantive rules on the entire insurance
business.
g. Providing for a comprehensive scheme for the
rehabilitation and liquidation of insurance companies
and those subject to this chapter as part of the
regulation of the business of insurance, the insurance
industry, and insurers in this state. Proceedings in
cases of insurer insolvency and delinquency are
deemed an integral aspect of the business of insurance
and are of vital public interest and concern.
4. Iowa Code Ann. § 507C.21 provides:
507C.21. Powers of liquidator
1. The liquidator may:
a. Appoint a special deputy to act for the
liquidator under this chapter, and determine the
special deputy's reasonable compensation. The special
deputy shall have all powers of the liquidator granted
by this section. The special deputy shall serve at the
pleasure of the liquidator.
b. Hire employees and agents, legal counsel,
actuaries, accountants, appraisers, consultants, and
other personnel as the commissioner may deem
necessary to assist in the liquidation.

68a
c. With the approval of the court fix the
reasonable compensation of employees and agents,
legal counsel, actuaries, accountants, appraisers and
consultants.
d. Pay reasonable compensation to persons
appointed and defray from the funds or assets of the
insurer all expenses of taking possession of,
conserving, conducting, liquidating, disposing of, or
otherwise dealing with the business and property of
the insurer. If the property of the insurer does not
contain sufficient cash or liquid assets to defray the
costs incurred, the commissioner may advance the
costs so incurred out of an appropriation for the
maintenance of the division. Amounts so advanced for
expenses of administration shall be repaid to the
commissioner for the use of the division out of the first
available moneys of the insurer.
e. Hold hearings, subpoena witnesses, and compel
their attendance, administer oaths, examine a person
under oath, and compel a person to subscribe to the
person's testimony after it has been correctly reduced
to writing, and in connection to the proceedings
require the production of books, papers, records or
other documents which the liquidator deems relevant
to the inquiry.
f. Collect debts and moneys due and claims
belonging to the insurer, wherever located. Pursuant
to this paragraph, the liquidator may:
(1) Institute timely action in other jurisdictions to
forestall garnishment and attachment proceedings
against debts.
(2) Perform acts as are necessary or expedient to
collect, conserve or protect its assets or property,
including the power to sell, compound, compromise or

69a
assign debts for purposes of collection upon terms and
conditions as the liquidator deems best.
(3) Pursue any creditor's remedies available to
enforce claims.
g. Conduct public and private sales of the
property of the insurer.
h. Use assets of the estate of an insurer under a
liquidation order to transfer policy obligations to a
solvent assuming insurer, if the transfer can be
arranged without prejudice to applicable priorities
under section 507C.42.
i. Acquire,
hypothecate,
encumber,
lease,
improve, sell, transfer, abandon, or otherwise dispose
of or deal with property of the insurer at its market
value or upon terms and conditions as are fair and
reasonable. The liquidator shall also have power to
execute,
acknowledge,
and
deliver
deeds,
assignments, releases and other instruments
necessary to effectuate a sale of property or other
transaction in connection with the liquidation.
j. Borrow money on the security of the insurer's
assets or without security and execute and deliver
documents necessary to that transaction for the
purpose of facilitating the liquidation. Money
borrowed pursuant to this paragraph shall be repaid
as an administrative expense and have priority over
any other class 1 claims under the priority of
distribution established in section 507C.42.
k. Enter into contracts as necessary to carry out
the order to liquidate and affirm or disavow contracts
to which the insurer is a party.
l. Continue to prosecute and to institute in the
name of the insurer or in the liquidator's own name
any and all suits and other legal proceedings, in this

70a
state or elsewhere, and to abandon the prosecution of
claims the liquidator deems unprofitable to pursue
further. If the insurer is dissolved under section
507C.20, the liquidator may apply to any court in this
state or elsewhere for leave to substitute the
liquidator for the insurer as plaintiff.
m. Prosecute an action on behalf of the creditors,
members, policyholders or shareholders of the insurer
against an officer of the insurer, or any other person.
n. Remove records and property of the insurer to
the offices of the commissioner or to other place as
may be convenient for the purposes of efficient and
orderly execution of the liquidation. A guaranty
association or foreign guaranty association shall have
reasonable access to the records of the insurer as
necessary to carry out the guaranty's statutory
obligations.
o. Deposit in one or more banks in this state sums
as are required for meeting current administration
expenses and dividend distributions.
p. Unless the court orders otherwise, invest funds
not currently needed.
q. File necessary documents for record in the
office of a recorder of deeds or record office in this state
or elsewhere where property of the insurer is located.
r. Assert defenses available to the insurer as
against third persons including statutes of limitation,
statutes of fraud, and the defense of usury. A waiver
of a defense by the insurer after a petition in
liquidation has been filed shall not bind the liquidator.
If a guaranty association or foreign guaranty
association has an obligation to defend a suit, the
liquidator shall defer to the obligation and may defend

71a
only in the absence of a defense by the guaranty
association.
s. Exercise and enforce the rights, remedies, and
powers of a creditor, shareholder, policyholder, or
member, including the power to avoid a transfer or
lien that may be given by the general law and that is
not included with sections 507C.26 through 507C.28.
t. Intervene in a proceeding wherever instituted
that might lead to the appointment of a receiver or
trustee, and act as the receiver or trustee whenever
the appointment is offered.
u. Enter into agreements with a receiver or
commissioner of insurance of any other state relating
to the rehabilitation, liquidation, conservation or
dissolution of an insurer doing business in both states.
v. Exercise powers now held or hereafter
conferred upon receivers by the laws of this state not
inconsistent with this chapter.
w. Audit the books and records of all agents of the
insurer which relate to the business of the insurer.
2. This section does not limit the liquidator or
exclude the liquidator from exercising a power not
listed in subsection 1 that may be necessary or
appropriate to accomplish the purposes of this
chapter.

